         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Evaluation Report




       Much Effort and Resources
       Needed to Help
       Small Drinking Water Systems
       Overcome Challenges
       Report No. 2006-P-00026

       May 30, 2006
Report Contributors:	               Ira Brass
                                    Anthony Chirigotis
                                    Dan Engelberg
                                    Frank Pelczarski




Abbreviations

CDC           Centers for Disease Control and Prevention
DWSRF         Drinking Water State Revolving Fund
EPA           U.S. Environmental Protection Agency
OGWDW         Office of Ground Water and Drinking Water
OIG           Office of Inspector General
RCAP          Rural Community Assistance Partnership
RWA           Rural Water Association
SDWA          Safe Drinking Water Act




Cover photo: A girl drinking glass of water from sink (United States Geological Survey photo)
                       U.S. Environmental Protection Agency                                               2006-P-00026

                                                                                                           May 30, 2006

                       Office of Inspector General


                       At a Glance

                                                                             Catalyst for Improving the Environment


Why We Did This Review             Much Effort and Resources Needed to Help
                                   Small Drinking Water Systems Overcome Challenges
We conducted this review to
examine the challenges faced
by small drinking water             What We Found
systems in providing water
that is safe to drink and the      The critical issues facing small drinking systems have not changed in recent years.
adequacy of U.S.                   Our preliminary research suggests that they have faced and still face a multitude of
Environmental Protection           challenges that fall into two basic categories: financial/management matters and
Agency (EPA) and State             regulatory/compliance issues.
initiatives for addressing those
challenges.                        Government and nongovernment organizations have attempted many different
                                   initiatives and approaches to assist small drinking water systems in overcoming
Background                         their challenges. We noted several State and third party initiatives that could be
                                   used for best practices. While it is difficult to measure the effectiveness of
EPA classifies public water        individual EPA and State activities to assist small drinking water systems, our
systems according to the           preliminary research provided indicators of success as well as limitations of these
number of people they serve,       approaches.
the source of the water, and
whether they serve the same        Limited data exist on the health impacts related to small drinking water systems.
customers year-round or on an      The Centers for Disease Control and Prevention maintains the data system on
occasional basis. There are        drinking water cases, but states that the information is vastly underreported. That
approximately 54,000               is not to say that the potential for health impacts is not something to be taken
community water systems of         seriously. Some data show health outbreaks related to small drinking water
which 85 percent are small         systems.
(501 to 3,300 people) or very
small (25 to 500 people),
serving 10 percent of this
Nation’s population.                What We Recommend

                                   We recommend that EPA work with States to identify successful approaches for
                                   working with small systems to obtain financing. We also recommend the Agency
                                   work closer with States to identify and compile small system best practices and
For further information,           establish a method for disseminating the information, to maximize limited
contact our Office of              resources to assist small systems. Our recommendations in this report, while
Congressional and Public           necessary, will not in themselves solve small system problems in their entirety.
Liaison at (202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2006/
20060530-2006-P-00026.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL



                                          May 30, 2006

SUBJECT: 	            Much Effort and Resources Needed to Help Small Drinking Water
                      Systems Overcome Challenges
                      Report No. 2006-P-00026

TO:        	          Benjamin Grumbles
                      Assistant Administrator for Water


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

On March 14, 2006, the OIG issued a draft report to EPA for review and comment. A response
was submitted on April 20, 2006, and an exit conference was held on May 8, 2006. EPA agreed
that many small water systems lack adequate technical, managerial, and financial capacity to
operate in a sustainable manner and stated that its efforts have brought about improvements.
EPA generally concurred with our recommendations, but suggested some changes to recognize
activities that are underway. EPA also requested the deletion of one recommendation on
regulatory approach because EPA has attempted to reduce the burden of regulations on small
systems by providing flexibility. The OIG has incorporated these comments, as well as technical
corrections and supplemental information provided by EPA, into the final report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. You should include a corrective actions plan for agreed upon
actions, including milestone dates. We have no objections to the further release of this report to
the public. This report will be available at http://www.epa.gov/oig. If you or your staff have any
questions, please contact me at (202) 566-0847 or Dan Engelberg at (202) 566-0830.

                                                    Sincerely,


                                                    Bill A. Roderick
                                                    Acting Inspector General
                                 Table of Contents 

At a Glance


Chapters
   1   Introduction ...........................................................................................................      1


               Purpose ..........................................................................................................    1         

               Background ....................................................................................................       1         

               Scope and Methodology.................................................................................                2


   2   Small Systems Face Many Challenges ...............................................................                            4


               Financial/Management Challenges ...............................................................                       4

               Regulatory/Compliance Challenges ..............................................................                      10         

               Conclusion......................................................................................................     12         

               Recommendation ...........................................................................................           13         

               Agency Comment and OIG Evaluation ..........................................................                         13 


   3   Many Approaches Undertaken to Assist Small Systems ..................................                                        15     


               EPA Headquarters Pursues Several Approaches .........................................                                15 

               EPA Regional Initiatives Address System Concerns......................................                               16 

               States Take Various Approaches ...................................................................                   17 

               Third-Party Organization Assistance a Key Piece..........................................                            19 

               Conclusion......................................................................................................     21         

               Recommendation ...........................................................................................           21         

               Agency Comment and OIG Evaluation ..........................................................                         21 


  4    Small System Approaches Have Shown Mixed Results....................................                                         23     


               Smaller Systems Have Greater Noncompliance ...........................................                               23 

               Systems Report EPA Guidance Is Difficult to Understand .............................                                 25 

               Variances and Exemptions Appear Rarely Used ...........................................                              25 

               Regional Initiatives Have Had Mixed Results.................................................                         25 

               Consolidation Has Pros and Cons ................................................................                     26 

               State Resource Shortages Hamper Assistance .............................................                             27 

               Kansas Loan Program Is Productive ..............................................................                     27 

               Third-Party Organizations Seen as Beneficial to Small Systems ...................                                    28 

               One Small System Overcomes Challenges Through Own Efforts .................                                          29 

               Conclusion......................................................................................................     30         

               Recommendation ...........................................................................................           30         

               Agency Comment and OIG Evaluation ..........................................................                         30 

 5   Minimal Data on Health-Related Impacts ............................................................                        32     


             Drinking Water Outbreak Data Underreported ...............................................                         32 

             Health Effects May Be Small-System Related ...............................................                         33 

             Public Health More at Risk in Small Systems.................................................                       34 

             Conclusion......................................................................................................   35         

             Recommendation ...........................................................................................         36         

             Agency Comment and OIG Evaluation ..........................................................                       36 



Appendices
 A   Organizations Visited During Preliminary Research .........................................                                37     


 B   Benefits and Barriers to Consolidation...............................................................                      38     


 C   Agency Response ................................................................................................           40     


 D   Distribution ...........................................................................................................   55     

                                Chapter 1
                                Introduction
Purpose

      The EPA Strategic Plan stated that small community water systems are more likely
      than others to have difficulty complying with drinking water standards. We
      conducted preliminary research to examine the challenges faced by small drinking
      water systems in providing water that is safe to drink and the adequacy of EPA and
      State initiatives for addressing those challenges. More specifically, we directed our
      work toward the following questions:

          1.	 What challenges do small drinking systems face to assure that drinking water
              meets current and future Safe Drinking Water Act (SDWA) requirements?
          2.	 What approaches are EPA, States, and drinking water systems using to
              overcome these challenges?
          3.	 How effective are EPA and the States in assisting small drinking water
              systems to meet drinking water requirements?
          4.	 What is the impact of these efforts on the health of consumers of drinking
              water from small systems?

Background

          EPA classifies public water systems according to the number of people they
          serve, the source of the water, and whether they serve the same customers year-
          round or occasionally. Public water systems provide water for human
          consumption through pipes or other constructed conveyances to at least 15 service
          connections or serve an average of at least 25 people for at least 60 days a year.
          EPA has defined three types of public water systems:


          Table 1.1: Types of Public Water Systems
           Type                                                    Description
           Community Water System               Supplies water to the same population year-round.
           Non-Transient Non-Community          Regularly supplies water to at least 25 of the same
           Water System                         people at least 6 months per year, but not year-
                                                round. Some examples are schools, factories,
                                                office buildings, and hospitals that have their own
                                                water systems.
           Transient Non-Community Water        Provides water in a place such as a gas station or
           System                               campground where people do not remain for long
                                                periods.




                                           1

         EPA also classifies water systems according to the number of people they serve:


         Table 1.2: Number of People Served by Public Water Systems
          Size of System             Number of People Served
          Very small                       25-500
          Small                            501-3,300
          Medium                          3,301-10,000
          Large                           10,001-100,000
          Very large                       100,001+



         SDWA was passed by Congress to protect public health by regulating the nation’s
         public drinking water supply. SDWA authorized EPA to set national health-based
         standards for drinking water to protect against both naturally-occurring and man-
         made contaminants. EPA, States, and water systems then work together to make
         sure that these standards are met.

         Approximately 54,000 community water systems exist, of which 85 percent are
         small or very small, serving 10 percent of the population.

Scope and Methodology
         We performed our evaluation in accordance with Government Auditing
         Standards, issued by the Comptroller General of the United States. We conducted
         our preliminary research from June 2005 through December 2005. Preliminary
         research is a fact-finding process to obtain operational, performance, financial,
         and other program information. Therefore, a preliminary research report (like this
         one) is not as complete or thorough as a field work one. To gain a broad
         perspective of small drinking water issues, we reviewed various agency, trade,
         industry, and academic journals, reports, and Web sites and attended the
         Association of State Drinking Water Administrators national conference. We also
         interviewed staff at EPA’s Office of Ground Water and Drinking Water
         (OGWDW) and Regions 1 and 7; State environmental and health offices in
         Maine, Massachusetts, and Kansas; 9 third party assistance organizations; and
         19 small community drinking water systems (see Appendix A). To obtain
         additional insight on our health objective, we interviewed a member of the
         National Drinking Water Advisory Council.

         We selected the States based on several factors, including (1) difference of
         approaches, (2) geographic diversity, (3) number of third party organizations, and
         (4) number and proportion of small systems. We avoided selecting States that had
         been recently visited during other Office of Inspector General drinking water
         assignments. We also avoided selecting States that were in the midst of dealing
         with hurricane-related concerns. To aid in our decision making, we sought the


                                         2

advice of OGWDW for State selection, and States and third party organizations
for small system selections, because of their greater familiarity with the program.
Our study was limited to community water systems; the majority of systems
visited were very small ones, since they probably faced the greatest challenges.
Although our conclusions are drawn from commonalities among participants, this
study did not employ a statistical sampling approach.

The OIG has not performed any previous work specifically on the small drinking
water systems. However, the following recent reports have detailed some issues
related to small systems:

   	 Progress Report on Drinking Water Protection Efforts (2005-P-00021),
      August 22, 2005

   	 Source Water Assessment and Protection Programs Show Initial Promise,
      But Obstacles Remain (2005-P-00013), March 28, 2005




                                 3

                                            Chapter 2
                 Small Systems Face Many Challenges
                 Small drinking water systems have faced and still face a multitude of challenges.1
                 Our preliminary research suggests that these challenges basically fall into two
                 categories: financial/management matters and regulatory/compliance issues,
                 though the two categories are interrelated. EPA officials have noted that the
                 critical issues facing small systems have not changed much over the past 20 years.
                 Our preliminary research work through literature reviews and discussions with
                 officials at all the levels corroborated that observation.

Financial/Management Challenges
                 Small drinking water systems face many challenges that fall under this category
                 including lack of financial resources, insufficient revenue, aging infrastructure,
                 difficulties obtaining financial assistance, cost of scale, management limitations,
                 lack of long-term planning, and system operator issues. These affect the
                 regulatory/compliance challenges to be discussed (see page 10). Almost half
                 (9 of 19, or 47 percent) of the small systems visited mentioned financial issues as
                 a challenge.

                 Lack of Financial Resources

                 A 1997 report by the National Academy of Sciences stated, "Small communities
                 face the greatest difficulty in supplying water of adequate quality and quantity
                 because they have small customer bases and therefore often lack the revenues
                 needed to hire experienced managers and to maintain and upgrade their water
                 supply facilities.”2 This limited financial capacity was echoed by groups such as
                 the National Drinking Water Advisory Council, the National Regulatory Research
                 Institute, the National Rural Water Association, and the Universities Council on
                 Water Resources.

                 The lack of financial resources was brought up at each level of our site visits. For
                 example, OGWDW staff members pointed out parts of the country have

1
  Congress tried to address some of these challenges with the SDWA Amendments of 1996. The Amendments
contained provisions to help States and water systems (including small ones) improve public health protection,
including (1) assessing water sources, (2) certifying system operators, (3) improving the technical, managerial, and
financial capacity of water systems, (4) providing funding for infrastructure improvements, (5) providing funding to
States, and (6) keeping the public informed. An August 2005 OIG report (Progress Report on Drinking Water
Protection Efforts, 2005-P-0021, August 22, 2005) discussed some of the progress made as a result of the
Amendments.
2
  National Academy of Sciences, Committee on Small Water Supply Systems, Water Science and Technology
Board, Commission on Geosciences, Environment, and Resources, National Resource Council, Safe Water From
Every Tap – Improving Water Services to Small Communities.


                                                         4

                 communities that are losing population; this loss reduces the fee or rate base of
                 the utility. The Chief, Drinking Water Management Branch, Region 7, stated that
                 financial capabilities top the list of small drinking water system challenges. She
                 further noted that no revenue base for small systems exists. State of Maine
                 officials cited a lack of money to install treatment systems as an issue facing small
                 systems. The Massachusetts Rural Community Assistance Partnership (RCAP)
                 indicated that many systems lack adequate capacity and do not have the funding.
                 The Massachusetts Water Works Association said it was more difficult for small
                 systems to address issues when more money is needed and financial assistance is
                 unavailable. Eight of the 19 systems we visited mentioned a need for funding to
                 address problems. A Massachusetts water district superintendent stated that his
                 greatest concern was money for plant operations and debt payment. The customer
                 base had diminished with large industry moving away. All five Kansas systems
                 visited were poor communities with very poor financial bases.

                 Insufficient Revenue

                 One factor contributing to the strain of financial resources is receiving adequate
                 revenue from users. The need to increase water rates can be affected by political
                 concerns and weak financial bases. In May 2004, a group of international experts
                 meeting on small water systems reported3 balancing system needs with costs as a
                 challenge faced by system managers. The experts indicated that board members
                 and elected officials may be reluctant to raise rates, or have conflicting priorities
                 when it came to distributing funds. Articles in National Rural Water Association
                 and University of Council of Water Resources publications have highlighted
                 avoidance or infrequent rate increases as difficulties faced by water managers.
                 One author stated that many systems have never analyzed their rates and almost
                 none do it annually. He further stated that elected boards tend to believe their role
                 is to keep rates low.

                 An article4 by an Environmental Finance Center official stated that another factor
                 contributing to the problem of sustaining financial capacity is customer perception
                 of the cost of service. Even if water is under-priced, customers will react to any
                 increase in charges or costs regardless of their legitimacy. Customers react with
                 “sticker shock” to rapid or significant price increases necessary to compensate for
                 delays in system improvements or failures to properly reserve resources for future
                 capital improvements.

                 Our visits and interviews found examples of rate increase resistance. Maine
                 RCAP officials spoke of very small systems being leery of rate increases. Also,
                 5 of the 19 small systems visited discussed the difficulty of getting a rate increase
                 as a problem. A Massachusetts water system had not had a rate increase in

3
  Tim Ford, Gretchen Rupp, Phillip Butterfield, and Anne Camper, compilers, Protecting Public Health in Small 

Water Systems, Report of International Colloquium, January 2005. 

4
  William Jarocki, Funding the Future: Meeting the Costs of Capital Replacement, Journal of Contemporary Water,

pp. 21-26.



                                                       5

                 approximately 15 years because town approval was not likely. A Kansas system
                 pointed to a majority of the town’s population being elderly or below the poverty
                 level as the reason for low rate increases.

                 Aging Infrastructure

                 One of the biggest costs facing drinking water systems is maintaining and
                 replacing infrastructure. The most recent report to Congress on drinking water
                 infrastructure needs5 (June 2005) shows that small system needs are estimated at
                 $34.2 billion. Aging infrastructure needs to be replaced to assure water quality
                 and compliance with drinking water regulations.

                 The challenge of aging infrastructure has been addressed by many reports and
                 publications. A 2000 Midwest Technology Assistance Center study on economic
                 and managerial capacity for small systems6 found that the main topic for most
                 small systems was a need to replace antiquated and inadequate infrastructure.
                 Over a 5- year period of financial capacity reviews, the Environmental Finance
                 Center at Boise State University7 found that 78 percent of Idaho systems
                 presented no evidence that future infrastructure needs had been identified

                 Third-party organizations we visited described infrastructure concerns.
                 According to the Executive Director of the Maine Rural Water Association
                 (RWA), water systems are reaching their natural life expectancy of 50 to 80 years
                 and fewer dollars and grant monies are available for infrastructure than in prior
                 years. The Executive Director of the Massachusetts Water Works Association
                 stated that small systems have a continuing larger infrastructure need while
                 operating day-to-day. Small systems, she said, will have to wait until new
                 requirements are in place before they can consider any infrastructure
                 improvements, since they do not want to chance spending money on proposals
                 that may not occur.

                 Seven of the small systems we visited mentioned aging infrastructure as a
                 challenge. A Massachusetts water district indicated that as water leaks occur,
                 replacement work is done. No money exists for capital improvements. One
                 Maine system described needing $1.5 million to make its water system safe from
                 a potentially dangerous health hazard, as its system infrastructure has water lines
                 directly below septic systems. Several of the Kansas systems have been unable to
                 comply with recently enacted drinking water regulations and cannot afford the
                 necessary system upgrades to bring them into compliance.




5
  U.S. Environmental Protection Agency, Drinking Water Infrastructure Needs Survey and Assessment, Third 

Report to Congress, EPA-816-R-05-001, June 2005. 

6
  Jarocki, pp. 21-26. 

7
  Ibid. 



                                                       6

                 Difficulties Obtaining Financial Assistance

                 Small water systems found it more difficult to obtain necessary funding to address
                 financial needs. Both the 2000 National Drinking Water Advisory Council
                 report8 and an article in the 2004 Universities Council on Water Resources
                 Journal9 identify the availability and affordability of financing as a small system
                 challenge.

                 Both regions we interviewed indicated that the ability of small systems to obtain
                 loans, especially from the Drinking Water State Revolving Fund (DWSRF), is an
                 impediment. States and third parties also raised concern. Massachusetts officials
                 stated that there is a lot of paper work for systems to apply for loans. Generally,
                 if an amount is less than $100,000 it is not cost-efficient for a small system to
                 complete a DWSRF loan application. Massachusetts RCAP stated that less
                 DWSRF funding was going to communities and small systems have little capacity
                 to obtain funds. The Massachusetts Water Works Association said that the
                 DWSRF loan application process for small systems is both cumbersome and
                 costly. In some cases, it is cost-prohibitive for the amount of loan money sought.

                 Only 1 of the 19 small systems we visited received a loan/grant from the DWSRF.
                 Four systems obtained loans from the U.S. Department of Agriculture and one got
                 a commercial loan (EPA is only one of several Federal agencies that provides
                 funding for drinking water needs). Maine mobile home park owners had to sell
                 some of their other properties to cover $50,000 in drinking water related costs.
                 Only a few of the visited systems commented on the DWSRF process. Three
                 systems indicated they did not qualify or were rejected, while one system said it
                 stayed away from government loans and would rather pay cash.

                 Cost of Scale

                 It is more difficult for small systems to spread costs among their customers to
                 operate and maintain their systems. The 2001 drinking water needs report to
                 Congress10 stated that project costs for small systems are modest to larger ones;
                 however, costs per household are significantly higher than those associated with
                 the larger systems. This disparity results in many of the challenges we discuss.

                 Several 2004 Universities Council of Water Resources articles address this topic.
                 One states11 that economies of size are significant in water system operation and
                 have a profound effect on system management. These smallest systems are at a

8
  U.S. Environmental Protection Agency, Report of the National Drinking Water Advisory Council Small Systems

Implementation Work Group, EPA-816-R-00-012, April 2000. 

9
  Universities Council on Water Resources, Journal of Contemporary Water Research & Education, Issue 128, June 

2004. 

10
   U.S. Environmental Protection Agency, Drinking Water Infrastructure Needs Survey and Assessment, Second 

Report to Congress, EPA-816-R-01-004, February 2001. 

11
   Ben Dziegielewski and Tom Bik, Technical Assistance Needs and Research Priorities for Small Community 

Water Systems, Journal of Contemporary Water, pp. 13-20.



                                                       7

                distinct economic disadvantage. A second states12 that small systems, lacking
                economies of scale, are frequently poorly funded. They commonly operate at a
                loss on an operating cost basis. A third states13 that a distinction is made with
                very small systems since they are the systems most likely to be lacking technical,
                financial, and management capacity. An economy of scale exists for the number
                of users that water systems must have to be sustainable and very small systems
                typically fall below it. Both the Massachusetts Department of Environmental
                Protection and Massachusetts RCAP specifically brought up the challenge of
                economy of scale.

                Management Limitations

                Managerial capacity has been recognized for some time as a key component to
                successful operation. Small systems are acutely affected because their
                management many times is in the hands of a few individuals for whom a drinking
                water operation is not their sole occupation.

                Many reports and articles have addressed this theme. Two University of Illinois
                authors writing about the importance of water system management stated14 that
                many small communities are hard-pressed to evaluate needed improvements, raise
                funds, and manage the more sophisticated systems required to meet new drinking
                water standards. Most have part-time officials and few staff members to plan,
                oversee, and manage infrastructure improvements. The 2000 Midwest
                Technology Assistance Center study noted that poor water system management
                often reflected poor community management.

                The Region 7 Drinking Water Management Branch Chief said that two of the
                most difficult challenges facing small systems were the stability of a water system
                to maintain staff members that have the technical knowledge, and the ability and
                know-how to manage on a day-to-day basis.

                The third-party organizations we visited identified poor management as a
                concern. For example, according to Massachusetts RCAP, many systems lack
                adequate capacity and do not have the leadership. Maine RCAP stated that the
                overall strength or weakness of a system lies in its water boards and the overall
                strength is lacking. Massachusetts RWA discussed the absence of management at
                small systems. The Executive Director of the Massachusetts Water Works
                Association talked about the constant change of small system ownership, which
                negatively impacts implementing rules.



12
   Carl E. Brown, Making Small Water Systems Strong, Journal of Contemporary Water, pp. 27-30.

13
   Jim Maras, Economic and Financial Capacity of Small Water Systems, Journal of Contemporary Water,

pp. 31-34.

14
   John B. Braden and Philip C. Mankin, Ecnomic and Financial Management of Small Water Systems: Issue 

Introduction, Journal of Contemporary Water, pp. 1-5. 



                                                      8

                       Obviously, the systems we visited did not identify poor management as a current
                       concern because it might reflect on them. However, we were told several times
                       that people did not have enough time to understand the regulations or complete
                       necessary paperwork. One Massachusetts system discussed the neglect of the
                       previous water board that had mired the system in noncompliance issues. One
                       operator described the water system’s commissioners as “not too smart” and not
                       taking advantage of any provided training. We heard of system managers who
                       were only part-timers (e.g., school bus driver, volunteer) or had until recently
                       performed other professions (e.g., nursing technician).

                       Lack of Long-Term Planning

                       One aspect of poor management that carries over to some of the other challenges
                       is planning deficiencies. The challenge of long-term planning was cited in
                       National Drinking Water Advisory Council, International Colloquium, and the
                       Universities Council on Water Resources articles and reports. One third-party
                       organization commented on this topic. Maine RCAP stated that water systems do
                       no planning and do not look to the future.

                       Most systems visited did not discuss long-term planning, since they were mainly
                       focused on current issues. For example, four of the systems were not even aware
                       of how new pending regulations might affect them. However, one Massachusetts
                       water district indicated that a challenge for the future will be infrastructure needs
                       and no planning has occurred for future work.

                       System Operator Issues

                       Water system operators are key players in assuring the safe drinking water is
                       provided to the public. While the challenges discussed so far reflect managerial
                       and financial capacity concerns, operator issues reflect water system technical
                       capacity concerns. Many challenges involve or face operators, which reflect the
                       microcosm of challenges that confront small systems (financial/management,
                       regulatory/compliance).

                       The January 2005 International Colloquium report15 listed many of the specific
                       challenges faced by small system operators:

                          	 Multiplicity of regulations, which can be confusing. Not always obvious
                             to operator responsible for compliance why regulations exist or whether
                             they apply to all systems.
                          	 Older operators may have difficulty understanding new technologies
                             (insufficient training opportunities, poor reading skills).
                          	 When older operators retire, there is limited ability or opportunity to pass
                             on historical operation knowledge to new operators.
                          	 Part-time or volunteer operators.
15
     Tim Ford et al.


                                                         9

                     	 Lack of available training, or few incentives to take training.
                     	 Inability to attend training because of lack of backup operators.
                     	 Shortage of new people to replace retiring operators (exacerbated by poor
                        pay and low status of job).
                     	 Operators may not have influence to take protective health measures that
                        are in conflict with other financial demands on system or community.

                The entities we visited discussed many of these same issues. Maine officials
                emphasized the high turnover rate of water system operators; very small system
                operators do not have the time to keep current with additional training. The New
                England Interstate Water Pollution Control Commission, Maine RCAP, Maine
                RWA, and Massachusetts RWA noted that keeping qualified system operators
                was a problem. Massachusetts RWA officials further stated the technology
                required of operators was “too large” for them. The New England Interstate
                Water Pollution Control Commission and Massachusetts RWA said that being an
                operator is not viewed as a profession by the public and thus these positions are
                not adequately funded or funded at all. Maine RWA emphasized this point by
                stating that a trained and licensed operator can go work at Wal-Mart® and get
                more pay and fringe benefits, with much less responsibility and liability.

                Only one small system from Massachusetts specifically discussed overall operator
                issues. The Director of Public Works for the town said a major problem for
                systems is low pay, retention of qualified operators, and difficulty in getting
                people to step up and be responsible. Most other systems visited noted
                regulations issues (see below) or assistance and training received (see Chapters 3
                and 4).

Regulatory/Compliance Challenges
                Small drinking water systems face challenges of a regulatory/compliance nature:
                difficult to understand and burdensome regulations, compliance with current
                regulations, and compliance with future regulations. Many of these are as a result
                of the challenges described in the financial/management section. Of the 19 small
                systems we visited, 13 (68 percent) mentioned regulatory issues as a challenge.

                Regulations Burdensome or Difficult to Understand

                A July 2001 National Rural Water Association white paper16 concluded that
                regulations have steadily increased since 1974 in both number and complexity
                and small water systems face a compounding effect. That is, compliance with one
                particular regulation may be much more difficult as result of one or more prior




16
  F. W. Pontius, Compounding Effect of Drinking Water Regulations on Small Water Systems, Rural Water
Parnership White Paper (Duncan, Oklahoma: National Rural Water Association, July 4, 2001).


                                                     10

                regulations. A later June 2004 white paper17 noted the increasingly stringent
                regulatory requirements and the associated cost and technical complexity of
                compliance.

                Massachusetts staff indicated that a major problem was that systems do not
                understand the rules which results in a need for technical assistance. They also
                stated that small systems have too much paperwork. Maine staff indicated that
                from a small system’s perspective, the existing requirements, the reporting, and
                the impact of the new regulations will be burdensome.

                Small systems we visited also weighed in on these issues. A Maine mobile home
                park operator stated that his greatest concern was the time to do necessary
                paperwork. He claimed to understand the regulations, but not why certain tests
                were needed. Another Maine mobile home owner expressed frustration with
                burdensome requirements and their impact on his system. He said he did not
                know what he would do, but “maybe just walk away from the system.” A
                Massachusetts water district operator stated that too much time was required of
                systems to comply with regulations and the town could not pay someone to do all
                the work.

                Compliance with Current Regulations

                Several of the systems we visited in Massachusetts and Maine had been issued or
                were on enforcement documents and hence current compliance was not a
                challenge. Kansas staff discussed problems its small systems were having
                complying with the Stage 1 Disinfectant/Disinfection By-Products Rule. The
                challenge for systems with surface water as the source is infrastructure changes
                needed to comply with the maximum contaminant level requirements for Total
                Trihalomethanes and Five Haloacetic Acids. All five Kansas systems we visited
                faced this problem.

                Compliance with Future Regulations

                Many of the EPA regions, States, third parties, and small systems we visited
                mentioned future regulations as a challenge. These groups were concerned
                because EPA will be issuing new drinking water regulations soon, and their effect
                on small systems’ operations and finances is uncertain.

                According to the Chief of the Drinking Water Branch, Region 1, compliance with
                the Arsenic Rule will have the greatest impact on small systems; those systems
                without disinfection will be affected by the Ground Water Rule. Those States that
                have not monitored under Stage 1 will be quite heavily affected in implementing
                Stage 2 of the Disinfection By-Products Rule. According to Region 7, the

17
  Robert Raucher, Megan Harrod, and Marca Hagenstad, Consolidation of Small Water Systems: What Are the
Pros and Cons, Rural Water Partnership White Paper (Duncan, Oklahoma, National Rural Water Association, June
29, 2004).


                                                     11

         Radionuclides Rule and compliance will be an issue for some States and systems
         on a case-by-case basis, with many systems being in noncompliance. Region 7
         has found that many systems with radionuclide problems also have arsenic ones.

         Massachusetts’ Chief, Drinking Water Program, said the Ground Water Rule will
         be a problem for most of the small systems because 90 percent of those that use
         ground water do not disinfect—maybe an especially costly situation because new
         equipment may be needed to comply with the rule. A major problem, according
         to Massachusetts staff, was that systems do not understand the rules, resulting in a
         need for technical assistance. Maine staff concurred with the impact this rule will
         have on its small systems.

         Third-party organizations described future compliance issues faced by small
         systems. For example, the New England Interstate Water Pollution Control
         Commission is concerned with the revised Arsenic Rule and not sure how much
         EPA consideration was given to the burden placed on small systems – in
         particular the disposal of what is produced from the waste stream. Massachusetts
         RWA said the Ground Water, Disinfectant By-Products, and Arsenic Rules will
         impact the small systems; in particular those with ground water sources. In
         Massachusetts, the State’s proposed maximum contaminant levels for perchlorate
         is creating concerns among system operators. The Executive Director of the
         Massachusetts Water Works Association said that the new regulations will be
         overwhelming to the very small systems. She added that EPA’s concept of
         writing the rules as “one size fits all” does not fit all. Consideration should be
         given to personalizing or regionalizing a rule. Maine RWA indicated that while
         some small systems have recently spent money to upgrade their water filtration
         systems, they will have problems complying with the new regulations. Kansas
         RWA stated that the monitoring costs to test for Cryptosporidium and Giardia
         under the Long Term 2 Enhanced Surface Water Treatment Rule could be
         additionally imposing to the small systems.

         Ten of the 19 small systems we visited also brought up future regulations as items
         of possible concern. One Maine water department operator stated that if EPA’s
         rules become more stringent, many small systems will not be able to cope. This
         possible situation is due in part to the lack of experience, finances, technology,
         and the time to address the additional requirements. Several systems stated that
         they were not sure what the impact of future regulations would be on their
         systems.

Conclusion

         Small drinking water systems face myriad challenges to assure good water quality
         and protect public health now and into the future. These challenges, whether they
         are financial/management or regulatory/compliance, are interrelated, have existed
         for some time, and will continue.



                                          12

Recommendation
         We recommend that the Assistant Administrator for Water:

         2-1 	   Direct EPA work with States to identify successful approaches for
                 working with small systems in the DWSRF program.

Agency Comment and OIG Evaluation

         In its April 20, 2006 response, EPA stated that while it establishes the basic
         requirements of the DWSRF program, individual States implement them, thus
         there are actually 51 programs. EPA agreed that States should review their own
         processes to simplify and streamline them. The response stated that the law
         requires that 15 percent of DWSRF funds be provided to small systems serving
         fewer than 10,000, and national figures show that 39 percent of funding went to
         those entities. Statistics were provided showing that over half of the loans made
         since the program began were provided to small systems (serving 3,300 people or
         less). In response to Recommendation 2-1 the Agency stated it “will continue to
         work with states to identify best practices and share them with other states that are
         still facing challenges in funding small systems."

         The ability to obtain necessary funding is a challenge that small systems face. We
         recognize that within the DWSRF process, it is the States that have primary
         responsibility for the program. Some States have been more successful than
         others in assisting small systems. The identification and sharing of this
         information can be beneficial to other States and we believe EPA, with its
         national influence, can facilitate that exchange. We have revised our
         recommendation to reflect EPA’s role in the process.

         The response also suggested that draft Recommendation 2-2 be dropped. The
         recommendation had asked EPA to determine whether a “one size fits all”
         regulatory approach could be changed to a “regionalized” one. EPA stated that
         while potential occurrence and related exposure to a contaminant may vary by
         region, the health effects do not. EPA develops regulations to protect the public
         from potential health risks due to drinking water, regardless of where they are or
         the size of the system. In doing so, regulations are established that are risk-based,
         as opposed to a "one size fits all" approach. Examples were provided relative to
         Long-Term 2 Enhanced Surface Water Treatment and Arsenic Rules as they
         relate to small systems. To reduce burden on small systems, EPA varies
         schedules and monitoring requirements by system size (and relative population
         served). In addition, to reduce monitoring costs for small filtered systems, more
         expensive monitoring is only required if specified trigger values are exceeded.
         With regard to arsenic, small systems were provided an additional two years to
         comply with the standard. Additionally, where warranted, States have the
         flexibility to provide eligible systems with exemptions that can provide an
         additional nine years to meet the standard.


                                          13

The information provided in EPA’s response is consistent with the flexible
approach we were advocating in our draft recommendation. We believe small
systems sometimes need to be dealt with differently than larger systems because
of the specific challenges they face. Therefore, based on the EPA response, we
are deleting the draft recommendation.




                                14

                               Chapter 3
        Many Approaches Undertaken to Assist
                  Small Systems

         Many activities are being utilized to assist small drinking water systems in
         overcoming their challenges. EPA Headquarters, EPA regions, and States have
         all attempted different initiatives, several utilizing third-party organizations.
         Some address specific issues, while others cover a broad spectrum. Headquarters
         pursued a capacity development strategy and revised variance and exemption
         regulations. Region 1 used many of the Headquarters tools as part of its initiative;
         both Regions 1 and 7 had more directed initiatives for small systems concerning
         arsenic.

         We noted during our preliminary research several State and third-party initiatives
         that could be used for best practices. Massachusetts extensively used a coalition
         of third-party organizations, while Kansas’ initiatives sought to develop tools and
         programs that help water systems achieve and maintain financial and managerial
         capacity. Third-party efforts included a Massachusetts Water Works Association
         mentoring program, Maine RCAP working with several systems to establish a
         joint rate payer base, and Kansas RWA documents to aid water board/town
         council members.

         This chapter details the approaches taken. The effectiveness of the approaches is
         discussed in Chapter 4.

EPA Headquarters Pursues Several Approaches
         Headquarters’ strategy for small systems, Capacity Development, is pursued with
         all drinking water systems. This strategy continues the approach advocated in the
         SDWA Amendments to ensure that water systems have adequate technical,
         management, and financial capacity. Headquarters has been focusing mainly on
         guidance documents and working through funds given to the Technical Assistance
         Centers and Environmental Finance Centers. A number of Simple Tools for
         Effective Performance documents and “targeted” quick reference guides have
         been issued to assist small systems. Regions have utilized these for their own
         initiatives (see Region 1 below). The Technical Assistance Centers are working
         on materials for board member training and security basics (additional details on
         Technical Assistance Center activities are provided at the end of this chapter).
         The Environmental Finance Centers are currently working on financial training
         for board members.




                                          15

          EPA also revised its variances and exemptions regulations on August 14, 1998, to
          create a new affordability-based small systems variance. Variances under SDWA
          allow a public water system to deviate from the maximum contaminant level of a
          national primary drinking water regulation under certain conditions when
          exceptionally poor source water conditions prevent compliance with that
          regulation. Exemptions under SDWA allow a public water system extra time to
          comply with a new national primary drinking water regulation. When operating
          under variances or exemptions, water systems must still provide drinking water
          that protects public health.

EPA Regional Initiatives Address System Concerns
          Both the EPA regions we visited had their own initiatives to assist small drinking
          water systems address both categories of challenges presented in Chapter 2.
          Region 1 indicated that it utilized many of the Headquarters tools to assist small
          systems. For example, the region utilized the asset management tool developed
          by OGWDW: “Asset Management - A Handbook for Small Systems – One of the
          Simple Tools for Effective Performance (STEP) Series.” In 2004, the Region
          provided funds to RCAP to design and conduct asset management training for key
          regional and State contacts throughout New England. The asset management
          “Train the Trainers” workshops were developed to train about budgets, capital
          improvement plans, life cycle costs, operation and maintenance costs, and proper
          rate structure.

          The June 2004 Pocket Sampling Guide for Small Water Systems was developed
          by the New England Water Works Association, under an Assistance Agreement
          with Region 1. This sampling tool was modeled after two older versions
          produced by OGWDW. The region supported the effort to update the pocket
          guide to address noncompliance issues due to monitoring and reporting violations,
          advance the knowledge of new and existing regulations, and meet the needs of
          small systems for user friendly compliance assistance tools.

          Other Region 1 initiatives included the following:

             	 The “Got Computer” Project was funded on a grant to the New England
                Rural Water Association. This pilot project was an attempt to meet the
                needs of some small systems in accessing the Internet, by providing water
                utilities with used and donated EPA computers.

             	 The Technology List Server was developed to give water system owners
                and operators an opportunity to ask questions, share experiences, and post
                information informally.

             	 The Technology Advisory Board was established in 2001 to serve as a
                regional forum for information exchange, technical discussion, and




                                          16

                priority setting about treatment and emerging technologies relating to
                water systems.

            	 An Arsenic Initiative was developed to assist small systems address this
               water quality concern. This initiative included data compilation, GIS
               (Geographic Information System) mapping, an arsenic costing tool,
               information transfers, circuit riders, and various meetings.

         Region 7 also has an arsenic initiative for small systems. The regional staff's
         emphasis is on systems’ use of EPA’s Office of Research and Development grants
         and finding low cost treatment technologies for the systems to utilize (grants have
         been given to the University of Nebraska).

         The Region's implementation plan (1) emphasizes regulatory flexibility to States
         and utilities, (2) identifies appropriate and affordable arsenic removal strategies
         for small systems, (3) identifies and promotes use of affordable funding options,
         (4) provides appropriate treatment technologies for water systems, and
         (5) implements an aggressive research to identify new affordable technologies.

States Take Various Approaches
         The States we visited took different approaches to assist small systems. Some of
         these initiatives we believe can serve as best practices and should be shared with
         other States.

         Massachusetts

         Massachusetts extensively used a coalition of third-party assistance organizations.
         It provided its full 2-percent DWSRF set-aside to the Massachusetts Coalition for
         Small System Assistance, which was made up of the New England Water Works
         Association, Massachusetts Water Works Association, Massachusetts Rural
         Water Association, and RCAP.

         Free Massachusetts Coalition for Small System Assistance services to public
         water system personnel were in the following areas: seminar series on diverse
         topics, one-on-one site visits, regional mentoring cooperatives, operator
         reimbursement training, and public awareness.

         Massachusetts found it helpful to put systems on a compliance schedule. The
         State uses compliance measures as the method of determining if information is
         being communicated correctly to the systems or if they understand what they need
         to do. This allows the assistance organizations to provide the aid systems need to
         comply. Third-party assistance organizations are considered to wear the “white
         hats” by water systems because they are not responsible for enforcement, which is
         the State role. Therefore, these assistance organizations are better accepted and
         can provide the needed assistance.


                                          17

Maine

Maine also worked closely with its third party organizations. The State partnered
with such groups as Maine RWA and Maine RCAP to fund circuit riders and
provide training to small systems.

Kansas

Kansas has taken a number of initiatives to assist small systems. Since 2002, the
State has been involved with developing tools and programs that help water
systems achieve and maintain financial and managerial capacity. These programs
and tools are listed below.

     Kancap. Under contract with Kansas RWA, an interactive CD and
     handbook (available on the disk) were developed that water system and
     governing board members can use as an educational tool as well as a
     reference guide, once training is completed. Many topics are on the disk,
     with an emphasis on managerial and financial responsibilities.

     Financial Planning Tools and Assistance (In Process). Kansas contracted
     with the Environmental Finance Center at Boise State University to develop
     a Kansas-specific rate-setting and financial planning tool to be made
     available via the Internet to all water systems. The software was to be ready
     by the end of 2005.

     Kansas contracted with a consulting firm to provide on-site financial
     planning assistance, including rate setting, budget review, and capital
     improvement planning. A report is provided to the systems with
     recommendations to help them achieve and maintain financial capacity.

     Regional Public Water Supply Planning Grant Program. This program
     provides 50-percent matching funds for preliminary engineering studies that
     evaluate regional solutions to address system needs and challenges. Kansas
     uses a portion of the drinking water loan fund set-aside to provide up to
     $12,500 to match funding provided by project sponsors for the studies. It
     started in fiscal 2004; to date, three studies have been funded. Those studies
     have the potential to benefit a total of 19 public water supply systems.

     Kansas Public Water Supply Loan Fund Program. The revolving fund
     provides financial assistance in the form of loans to municipalities at below
     market interest rates, for constructing public water supply system
     infrastructure. The loan fund is made possible by receiving capitalization
     grants from EPA. As new regulations are implemented, it is the State’s
     intent that loans help systems meet challenges faced in achieving
     compliance. The State contracts with the Kansas Rural Water Finance
     Authority to conduct financial reviews of all systems applying for a loan.



                                18

               Kansas Public Water Supply Loan Fund: Small System Technical
               Assistance 2 Percent Set-Aside. Technical assistance is provided to
               systems serving less than 10,000 through a contract with Kansas RWA.
               Kansas RWA will provide technical help to small systems to help comply
               with rules, develop and maintain proper operation and maintenance
               procedures, and develop appropriate management procedures and provide
               technical assistance to systems using surface water as their source of supply.
               Kansas RWA provides a minimum of 420 hours of onsite technical
               assistance.

               Kansas is also focused on regionalizing (or consolidating) systems. This is
               not a forced program but can be mandated depending on case-by-case
               issues. Nonetheless, it is encouraged as small systems get into difficulty.
               Regionalizing systems is more common in the central and western parts of
               the State. (Consolidation is detailed more fully in Chapter 4.)

Third-Party Organization Assistance a Key Piece
          Third-party organizations are active in assisting small systems, both as partners
          with EPA and States and on their own. They are a key player in the small system
          assistance process. Besides the approaches already described above (including
          the coordinated Massachusetts Coalition for Small System Assistance activity),
          some additional ones include the following.

          Maine RCAP

          RCAP's role is to aid systems in finding funding for improvements. Major
          problems for very small systems, especially with populations with low incomes,
          are they cannot keep up with plant improvements or they have an insufficient rate
          structure or user rate. An example of its efforts is its activity in Addison, Maine.
          The town has 65 households (200 people) with a ground water system and zero
          capacity development. A Maine RCAP official said many systems are like this in
          the State. RCAP is attempting to establish five systems on the same rate payer
          base with one operator. The overall benefit for the systems is that they would
          have an operator available to them for reporting, compliance, testing results, and
          any other pertinent issues. They also would share in the economy of scale for
          infrastructure issues. Both the State of Maine and Rural Development (at the U.S.
          Department of Agriculture) are supporting this initiative. Maine RCAP was able
          to get a local accounting firm to review the books pro bono and make corrections
          for the Addison water system. Massachusetts RCAP provided assistance to solve
          the technical problems. To date no operator has been hired.

          Massachusetts Water Works Association

          The Massachusetts Water Works Association independently provides 12 training
          sessions annually, in addition to the 20 to 25 training sessions that it does through



                                           19

the Massachusetts Coalition for Small System Assistance contract. The
Massachusetts Water Works Association provides very low cost training to water
system operators while training provided under the coalition contract is free. The
organization also does training sessions at vocational schools to identify job
opportunities in the drinking water field. It addresses boards of health, day care
centers, etc., to identify that, given the specifics, certain entities are in fact public
water systems and are required to abide by the SDWA regulations. Some
problems have occurred with local public health officials who are not fully aware
of all water requirements.

The Massachusetts Water Works Association also performs mentoring. The
mentoring sessions were designed to provide pertinent information to assist small
water systems maintain regulatory compliance. An additional benefit was that the
sessions provided an opportunity for small water system owners and operators to
meet experienced water works professionals and develop a network of resources
and contacts for obtaining additional information. A key component of the
mentoring program is the corps of volunteers who serve as “mentors” at the
mentoring sessions. The corps of volunteers consists of experienced water works
professionals, including consultants, engineers, and specialized staff from larger
water systems. The volunteers serve as presenters and facilitators at the
mentoring sessions. As “mentors,” they share their knowledge and skills with the
attendees. The mentoring program was promoted through the regional water
works associations, boards of health associations, and other organizations.

Kansas RWA

Kansas RWA has five circuit riders; three are funded by Kansas/EPA monies and
the remaining two are funded by the National Rural Water Association. The
organization provides training to water system operators and board members. To
aid water board/council members and utility employees in the running of their
water systems, Kansas RWA produced between 1993 and 2000 the seven-volume
Water Board Bible series.

EPA Technical Assistance Centers

We visited the EPA Technical Assistance Center at the University of New
Hampshire. This Center has worked with the New England Interstate Water
Pollution Control Commission and the New England Water Works Association
with respect to small systems treatment needs. For example, a pilot study is in
place in Newbury, Vermont; the Center will be coordinating similar small system
sand filtration systems with Maine RWA and the State of Maine.

Typically, a $4 million appropriation for the eight Technical Assistance Centers is
divided equally amongst them. However, there can be separate riders or other
appropriations. Each of the centers has specialties. For example:




                                   20

             •	 Montana State University. Maintains the national Web site and is
                nationally focused. It provides basic training material for operators in the
                form of CDs, on-line training, and books: 13 hours of training material. It
                has distributed thousands of CDs. The center has a $40,000 grant for
                research.
             •	 University of Missouri, Columbia. This center focuses more on
                technology than training.
             •	 Mississippi State University. This center works with Rural Water
                Associations and addresses small drinking water systems’ existing and
                emerging needs.
             •	 Pennsylvania State, Harrisburg. This Center provide training for
                persons involved with instruction and training of small public water
                system operators.
             •	 University of Alaska, Sitka. This Center provides training and technical
                assistance. It trains operators to use a laboratory testing kit.

Conclusion

         EPA, States, and third-party organizations are using many different approaches to
         assist small systems to overcome the various challenges they face. Some of these
         are in partnership and others are self-initiated. We found several of these to be
         better practices and worthy of sharing with other States and organizations.

Recommendation

         We recommend that the Assistant Administrator for Water:

         3-1	   Direct OGWDW to work closer with States to identify and compile small
                system best practices and establish a method for disseminating the
                information so that limited resources to assist small systems can be
                maximized.

Agency Comment and OIG Evaluation
         EPA concurred with our recommendation and agreed that it is important that
         successful tactics be shared to ensure the maximization of resources. The Office
         of Water has had many efforts underway and cited successes such as regional and
         national capacity development workshops, meetings with Technical Assistance
         Center grant recipients and providers, and the Capacity Development Program
         Tool. The Office of Water is also assessing approaches to get feedback directly
         from small systems on both the usefulness of the tools developed and the
         additional tools needed. Finally, one of the Office of Water’s goals is to develop
         an improved Internet site to provide information it has developed to support small
         systems and links to other third-party providers.



                                          21

We encourage Office of Water to continue to find ways to compile and
disseminate best practice information to assist small systems to maximize their
limited resources.




                                22

                                           Chapter 4
               Small System Approaches Have Shown
                          Mixed Results

                 The effectiveness of efforts to overcome small drinking water challenges has been
                 mixed. Statistics over the last 13 years show that system size correlates with
                 noncompliance with drinking water regulations.18 The smaller the system, the
                 greater the possibility of noncompliance. The approaches that EPA, States, and
                 third parties have tried to use to assist small systems (see Chapter 3) have run the
                 spectrum of success. We list the effectiveness of several of these approaches in
                 this chapter.

Smaller Systems Have Greater Noncompliance

                 EPA statistics have shown over the years that noncompliance with drinking water
                 regulations has increased as the size of the system decreases. For example, the
                 1997 Report by the National Academy of Sciences, Safe Water From Every Tap--
                 Improving Water Services to Small Communities, reviewed EPA data and found
                 the following:

                          . . . [the] number of community water systems that violated the
                          maximum contaminant level (MCL) for total coliforms by size of
                          community and water source (ground or surface) for the 27-month
                          period October 1, 1992, through December 31, 1994. Most of the
                          systems in violation were in ground water systems serving 500 or
                          fewer people, presumably because many of these systems do not
                          disinfect their water. The violation rate for systems with fewer
                          than 500 customers is more than twice the rate for systems serving
                          larger populations: a violation of the MCL for total coliforms was
                          reported by 29.5 percent of the systems serving fewer than 500
                          people as compared to less than 14.5 percent of the systems
                          serving larger communities.

                 The report also provided some other data for that time from the Federal Reporting
                 Data System, as shown in Table 4.1.

18
   Meeting drinking water standards is most difficult for water systems in small communities. Small communities
often cannot afford the equipment and qualified operators necessary to ensure compliance with safe drinking water
standards. Increases in both the number of drinking water regulations and the number of small community water
systems over the past three decades have compounded the problem of providing safe drinking water to small
communities.



                                                        23

                Table 4.1: Violations of Drinking Water Standards for Chemical Contamination by
                Size of Water System

                                                           Size of Population Served
                                             500 and
                                              under        501-3,300   3,301-10,000     >10,000
                 Total number of
                 systems with violations       531            162             25           15
                 Percentage of systems
                 with violations               1.5            1.1          0.61           0.44


                A June 2004 Journal of Contemporary Water Research & Education article19 cited
                statistics on 2002 SDWA violations in the United States. The proportion of total
                violations for the very small size category was much larger than the proportion of
                systems in this category (73 percent vs. 57 percent). Monitoring and Reporting
                violations dominated all size categories (nearly 60 percent of all violations) and
                more than 80 percent of Monitoring and Reporting violations are accounted for by
                very small systems. EPA considers maximum contaminant levels and treatment
                technique violations to be the most serious and classifies these as health-based
                violations. Very small systems had almost 60 percent of all the health-based
                violations; small systems accounted for another 24 percent.

                Data20 from 2 years later also support the system size difference:

                Table 4.2: Number of Community Water Systems in Violation

                                              Maximum            Maximum Residual       Treatment
                                            Contaminant        Disinfectant Level and   Technique
                 System Size               Level Violations       Other Violations      Violations
                 Very small                     2,032                  6,218               808
                 Small                           806                   2,003               365
                 Medium                          324                    438                107


                EPA data also show that small system noncompliance rates have remained
                relatively unchanged in recent years. For example, maximum contaminant level
                small system violation rates have ranged between 5.48 and 6.98 percent for the
                years 1998 to 2004. For the same period, treatment technique violation rates have
                ranged from 1.78 to 3.01 percent. These and other types of violations have varied
                up or down depending on the year.




19
 Dziegielewski and Bik, Technical Assistance Needs. 

20
  U.S. Environmental Protection Agency, FACTOIDS: Drinking Water and Ground Water Statistics for 2004, EPA

816-K-05-001, May 2005. 



                                                     24

Systems Report EPA Guidance Is Difficult to Understand
          One way EPA communicates drinking water requirements is through guidance
          documents. We found that many small systems thought this guidance difficult,
          complicated, and too technically written. Small systems had to depend on third
          party organizations to help them understand the documents. Since considerable
          time was spent on this endeavor, other worthwhile activities to assist small
          systems had to be sacrificed.

          For example, the Massachusetts Drinking Water Program Chief said that guidance
          documents, which are to explain and identify implementation of a rule, are too
          technical. A “plain English” version is needed.

          Four of the third-party organizations we visited also provided comments. On
          whether communicating material or guidance is reaching the small systems,
          Massachusetts RCAP believed it was achieved in an indirect manner--not directly
          from the regulatory agencies. It stated communication is generally a result of a
          system having a problem which results in their awareness of something--“a
          reaction thing.” Massachusetts RWA staff indicated that communication to water
          systems was okay, but the material sent to systems is too overwhelming. Systems
          feel guidance or any material is too complex (written by engineers for engineers),
          too overwhelming, and too burdensome. Maine RWA advised that the EPA
          regulations are burdensome to small systems. Its field staff spent a majority of
          their time explaining regulations to systems or reacting and explaining problems
          that occurred. Maine RWA stated that part of the problem is the amount of
          regulations and part is how EPA and States communicate to the water systems.
          Massachusetts RWA stated that guidance is complicated and presented in a
          confusing manner as opposed to hard technical jargon.

Variances and Exemptions Appear Rarely Used

          None of the entities we visited brought up the use of variances or exemptions.
          EPA had established these tools to assist small systems who cannot afford to
          comply with drinking water regulations. Since we identified compliance with
          future regulations as a small system challenge, we had expected more active use
          of this approach.

Regional Initiatives Have Had Mixed Results
          Several of the Region 1 initiatives described in Chapter 3 have had mixed results.
          Implementing the “Got Computer” Project pilot identified barriers to success due
          to the nature and age of the donated computers. The New England Regional
          Water Association distributed used computers (5 years old) to nine small water
          systems. As for the Technology List Server, about 60 representatives of water
          utilities, technical assistance providers, State drinking water programs, and EPA
          signed up for the list server. Region 1 utilized this mechanism to post information


                                          25

         on upcoming training and provide announcements of the availability of fact sheets
         and other guidance. However, over the long term the overall success of this
         project was spotty with respect to engaging water utilities to ask questions and
         share experiences. The Technology Advisory Board has proved more successful
         and continues today on an informal and as-needed basis.

Consolidation Has Pros and Cons
         Consolidation (sometimes referred to as regionalization) is one approach that has
         been proposed as a way for many small systems to address some of the challenges
         they face. Some States are strong proponents of this method (Alabama,
         Connecticut, Kansas, Kentucky, and North Carolina), while others (Maine and
         Massachusetts) are not. This approach is not a cure-all and has many advantages
         and challenges. Consolidation was brought up in several of the articles we
         reviewed and was an active approach in one of the States we visited (Kansas).

         Water system consolidation is defined as one community water system being
         absorbed into, combined with, or served by other utilities to gain the resources
         they otherwise lack. There are numerous forms of consolidation; some entail
         actual physical interconnection or other structural approaches, and some forms
         involve nonstructural approaches such as shared management arrangements.
         Utilities can enter into mergers or other cooperative agreements with other
         (usually larger) systems, or transfer management and/or ownership to another
         entity.

         The benefits to consolidation include economies of scale, increased financial
         opportunities, elimination of duplicative services, increased reliability, increased
         flexibility, enhanced protection of public health, skill improvements, and service
         efficiency. Conversely, a number of barriers exist, including loss of power and
         community independence, differing management goals, conflicting regulations,
         cost and benefit inequities, workforce reduction, equipment reduction, public
         confusion, and debt. Appendix B provides more details on benefits and barriers.

         Of the three States visited, only Kansas was actively pursuing consolidation.
         Kansas officials noted the challenges small systems faced and said the State
         proposes to systems that "regionalization" of systems may be an alternative.
         Massachusetts officials said they cannot have a "Consolidation Policy," while
         Maine officials noted that there were not any options for consolidation of small
         systems. All five small systems we visited in Kansas had dealt with
         regionalization; two have gone through with it, while the other three are still
         trying to decide what to do. Four of the five faced noncompliance with the Stage
         1 Disinfectant/Disinfection By-Products Rule that became effective in January
         2004. The other system had water supply problems. Challenges that these
         systems face or still face include poor economic bases (including many low
         income and elderly residents), fear of increased costs, loss of autonomy, and loss
         of revenue.


                                          26

State Resource Shortages Hamper Assistance
         State resource shortages are affecting the State agency's ability to serve the needs
         of small systems. We found shortages in two of the three States we visited. The
         shortages have caused States to cut back on their activities and depend more on
         third-party organizations to fill the void.

            •	 Maine does not have enough staff to do all the work it needs. Staffing (32
               people) has been the same since 2000. In fact, one person oversees over
               1,000 systems in one part of the State. In 2001, the State completed a self-
               assessment tool and identified that 62 State staff were needed for its
               drinking water program. The future of the whole program has been in
               jeopardy because the needed matching State funds have been an annual
               issue. In 2005, a $3.5 million bond was drafted through a special
               legislative session and was approved by the voters in November 2005. In
               2004, the State had no matching funds nor was a bond provided. In 2003,
               the State match was cut from $1.8 million to $1.2 million. At least one of
               the small systems visited stated that due to cutbacks the State had not been
               helpful.

            •	 Massachusetts had a “budget meltdown” 4 years ago which resulted in a
               25-percent staff reduction. The drinking water program was supported
               through funding that was approximately 25 percent EPA, 25 percent from
               the State budget, and the balance from an assessment to water systems
               (enacted through State legislation) that is .085 cents per thousand gallons
               of water used by systems. The State bills the water systems and this
               amount annually is approximately $2.2 million. At least one small system
               commented that it had to rely on third-party assistance because of the staff
               reductions.

Kansas Loan Program Is Productive
         Kansas’ Public Water Supply Loan Fund Program has been able to address water
         system needs. As noted in Chapter 3, the loan fund is made possible by receipt of
         capitalization grants from EPA. Between fiscal years 1997 and 2004, Kansas
         received a total of $84,376,600 from EPA in grants. Since inception in 1997,
         127 loans have been closed for a total of $290,457,701. One of the program goals
         is to provide loans to small systems. SDWA requires that 15 percent of the loan
         assistance must be to systems serving less than 10,000 people. Kansas takes this
         one step further and requires that 20 percent of loan funds go to systems with a
         population less than 5,000. Small systems have received 88 of the 127 loans
         made since the program began amounting to $103,174,812, or approximately
         35 percent of the total dollar of loans closed.




                                          27

Third-Party Organizations Seen as Beneficial to Small Systems
          Third parties have been a bright spot, providing the hands-on attention that small
          systems need. In a climate of limited governmental resources, third-party
          assistance organizations fill a void. In partnership with States, they provide
          necessary training, technical assistance, guidance, and financial and management
          tools to small systems. Fourteen of the 19 systems we visited spoke positively
          (none were negative) of these organizations.

          States are making use of these organizations to the benefit of small systems. For
          example, as noted in Chapter 3, Massachusetts made extensive use of the four-
          organization Massachusetts Coalition for Small System Assistance. This coalition
          was able contribute much needed assistance. For the period July 1, 2002, through
          June 30, 2004, the coalition reported the following milestones:

             •	 All 41 group training sessions have been completed.
             •	 All 276 one-on-one site visits have been completed.
             •	 All 30 mentoring sessions have been completed.
             •	 The Drinking Water Fair in the Western Region was conducted on
                November 20, 2002, and November 18, 2003, both with a good turnout.
             •	 The National Theatre for Children performed at various schools in the
                State during “Drinking Water Week,” May 5-9, 2003, and May 3-7, 2004.
             •	 The Small Systems Outreach Web Site continues to operate and is updated
                on a regular basis.

          Massachusetts officials said they were pleased with the work done and assistance
          by each of the organizations. They said there is no overlap of services provided
          by each. In fact, they are put in the same room to identify projects and
          coordination.

          While the other two States visited did not make as extensive use of its third-party
          organizations as did Massachusetts, small systems did benefit from the
          State/third-party partnerships.

          Maine identified a very good working relationship with the Maine RWA and
          Maine Utilities. Cooperation includes matching funds and sharing work. The
          State also identified its successful contact with third-party organizations such as
          RCAP and quarterly meetings with the New England Interstate Water Pollution
          Control Commission. The face-to-face meetings are successful. The State has
          used the Technical Assistance Center and has handed out Technical Assistance
          Center training CDs to water systems.

          Concerning its operator certification requirements, Maine contracted with Maine
          RWA to put on pre-exam training at 30 different sessions throughout the State.
          Maine specifically targeted systems that did not have certified operators and
          provided training at four strategic locations with 20 to 25 candidates each.


                                           28

         Training brochures were mailed out over a 4-year period through five to six
         mailings from Maine RWA. Maine states that it has 98-percent operator
         certification compliance. However, it emphasized that it has a high turnover of
         water system operators and that very small system operators do not have the time
         to keep abreast with additional training. Nonetheless, Maine continues to
         maintain its outreach for educational training.

         The measure of an approach is the perception of its user--in this case, the small
         systems themselves. We found the small systems we visited appreciated very
         much the assistance provided by third-party organizations. Here is just a
         sampling of their comments:

            •	 A Massachusetts director of public works said that without the assistance
               from assistance organizations, the water system would have great
               difficulties.
            •	 A Massachusetts water district treasurer said that if they did not have these
               resources (third parties) available to him, he would not know what to do.
            •	 A Maine system operator relied on a third-party organization to help
               define and translate the regulations. With hands-on assistance, the system
               is now in compliance.
            •	 A Maine water system operator stated, “I would stagger under the
               regulations without Maine Rural Water.”
            •	 Kansas town officials advised that a third-party organization was a great
               help to their community.

One Small System Overcomes Challenges Through Own Efforts
         Small systems are able to right their own ship in some cases. East Chelmsford,
         Massachusetts, was able to get out of noncompliance and improve its operation by
         its own actions. A town commissioner said the best thing for the system was the
         State Consent Order issued in 1999 because it forced change. This Order cited 42
         infractions since 1990 with no action taken to resolve and 19 additional new
         violations. The system was fined $5,000 and shut down from February to July
         1999. During this time, the State told the town to consider consolidation with
         another system. The commissioner said the townspeople rejected this
         recommendation. The Board of Commissioners had resigned.

         The big problem in 1999 was that the system had very little money. During the
         first 4 months under the new staff, the system was unable to pay bills and could
         only meet payroll. With a complete change in staff and board, the system doubled
         water rates in 1999, which Massachusetts had advised in prior years but not done.
         These rates were increased 5 percent per year for the next 3 years. Only in the
         last 3 years have rates not increased. Rate increases enabled the system to begin
         much needed improvements neglected under the prior administration. The system
         is now solvent and operates on $2 million per year with rates that have allowed
         improvements with excess of $1 million spent on upgrades over the past 6 years.


                                          29

         Today the system is a success story--but it is due to the diligent efforts of the
         current Board and the water system staff, in response to State enforcement action.
         EPA and Massachusetts have held sanitary survey classes using the town's
         success as an example.

Conclusion

         While it is difficult to measure the effectiveness of individual EPA and State
         activities to assist small drinking water systems, our preliminary research
         provided indicators of both successes and limitations in the approaches. An
         important aspect of the EPA drinking water program is its regulations and the
         guidance provided to assure compliance with them. We heard many times that
         they were difficult for small systems to understand. Regions and States tried
         many approaches; some worked better than others. Consolidation was one the
         approaches on the forefront, but because it has advantages and disadvantages, it is
         not a panacea. States are also facing resource shortages affecting their ability to
         assist small systems. Yet, States like Kansas have been able to provide loans
         funds to these systems. Because of limited resources, States have had to depend
         more on their partnerships with third-party organizations, and these have been
         able to fill the need. Several highly successful activities have taken place and
         small systems have acknowledged the benefits they receive.

Recommendation

         We recommend that the Assistant Administrator for Water:

         4-1 	   Develop and implement approaches to improve communication with small
                 systems so that targeted guidance is received and understood.

Agency Comment and OIG Evaluation

         EPA indicated that it was difficult to respond to this recommendation without a
         better understanding of the specific documents to which the interviewees were
         referring. EPA has been making a greater effort in the past several years to
         develop guidance that is targeted to small systems. As an example, a six-page
         summary of recent and upcoming products for small systems was attached as part
         of the April 20, 2006 response. The Agency response stated that while EPA will
         continue to work to develop guidance geared to small systems, it knows it needs
         to do a better job of ensuring the delivery of these products. It is clear that some
         small systems are unaware of specific products and tools and EPA believes the
         improved Web site and interactions with States and technical assistance providers
         will help get the word out, identify needs, and refine existing information to make
         it more useful.



                                          30

We found the difficulty of understanding the complicated and technically written
drinking water guidance was a concern that was prominently voiced by officials
of small systems and the States and third-party organizations that assisted them.
This was raised to us as a general complaint and hence we cannot provide the
specificity EPA requests. We note that the Office of Water has recently been
putting more effort in addressing this problem. We have revised the
recommendation to more accurately reflect our concern that EPA guidance is not
reaching the small systems for which it is intended. We encourage the Office of
Water to continue to try to better communicate technical and regulatory
information to small systems.




                                31

                                  Chapter 5
        Minimal Data on Health-Related Impacts
          Limited data exists on the health impacts related to small drinking water systems.
          The Centers for Disease Control and Prevention (CDC) maintains a data system
          of drinking water cases, but the information received is voluntary; CDC officials
          state that the information is vastly underreported. Examples of drinking water
          cases have occurred, as well as State boil orders, but they are not numerous; only
          some can be attributed to small community water systems.

          The potential for health impacts needs to be taken seriously. Health effects may
          be related to small systems: experts have stated that health problems are more
          likely to arise from exposure to "disinfectable pathogens" in smaller systems with
          limited resources than in larger ones.

Drinking Water Outbreak Data Underreported
          Most of the data on drinking water health issues come from the CDC. The CDC
          maintains a Waterborne Outbreak Surveillance System, which is voluntary,
          passive, paper-based, and unfunded. Because of these conditions, according to
          the Chief of CDC’s Environmental Health Services Branch, outbreaks are vastly
          underreported. She gave the example of the Milwaukee outbreak that involved
          approximately 400,000 cases, yet only 20 were reported. Some data are available
          from the CDC, but no specific breakdown exists of health-related cases relative to
          small community drinking water systems.

          For example, the above CDC official stated that from 1971 to 2002, 758
          outbreaks were reported, most caused by individual or non-community systems.
          Of that, CDC data for 1991 to 2000 indicated 155 outbreaks:

          Table 5.1: Waterborne Outbreaks (1991-2000)

                                                 Outbreaks          Cases
           Community Water Systems                           57           422,364
           Non-community Water Systems                        64            8,934
           Individual Water Systems                          34              548
           All Systems                                       155          431,846


          Of all the cases in Table 5.1 above, 403,000 of them related to the one outbreak in
          Milwaukee involving Cryptosporidium in 1993. The etiological agents that
          caused these other outbreaks included: Giardia, Cryptosporidium,
          Campylobacter, Salmonella, Escherichia coli (E. coli), Shigella, Plasiomonas
          shigelloides, non-O1 Vibrio cholerae, hepatitis A virus, Norwalk-like viruses,
          small, round-structured virus, chemical, and undetermined.


                                            32
Health Effects May Be Small-System Related
                 Other examples of health effects may be related to small systems, but these are
                 either specific outbreaks or evidence of problems in relatively small numbers and,
                 as can be seen, they are not only caused by small community systems.

                     •	 During the summer of 1998, an outbreak of E. coli occurred in Alpine,
                        Wyoming, sickening 157 people from 15 States. The investigators
                        concluded that surface water containing deer and elk feces seeped into the
                        aquifer that provided the town's water. The outbreak surfaced when
                        physicians noted an increase in bloody diarrhea among town residents.

                     •	 A University of Minnesota article21 noted that 5 of the 18 waterborne
                        outbreaks of E. coli reported to the CDC between 1982 and 1998 stemmed
                        from contaminated drinking water, and all 5 involved small water systems
                        or wells supplying rural townships or camps.

                     •	 A 2002 CDC article22 states in its summary paragraph that "Contamination
                        of small unprotected water systems may be an increasing public health
                        risk." This article cites other statistics on E. coli outbreaks. It states that
                        the first reported drinking water outbreak of E. coli occurred in 1989 in
                        rural Missouri and subsequently six more had been associated with
                        drinking water. Three were small and occurred in a camp, a recreational
                        vehicle park, and a well. The three more highly publicized recent ones
                        occurred in Wyoming (see above), New York, and Canada. The New York
                        one occurred in September 1999 at the Washington County Fair. In that
                        outbreak, the drinking water was likely contaminated when cow manure
                        seeped into a shallow, unchlorinated well after a large rainstorm. There
                        were 921 cases of diarrhea and possibly 2 deaths. The authors of the
                        article state that because of underreporting and underdiagnosis,
                        reported outbreaks probably represent a small fraction of the true number
                        of E. coli outbreaks associated with drinking water in the United States.
                        The article concludes:

                                  Small drinking water systems may be less likely to be
                                  adequately chlorinated and to routinely monitor for
                                  contaminants. The outbreak reported here confirms the
                                  potential of these small, unprotected and unchlorinated
                                  water systems to be an important source of infection with
                                  E. coli O157:H7 and other pathogens. Stronger
                                  enforcement of existing regulations and perhaps

21
   Wyoming E. coli O 157:H7 outbreak showed hazards in small water system (University of Minnesota: Center for 

Infection Disease Research and Policy), April 3, 2002. 

22
   Sonja J. Olsen, Gayle Miller, Thomas Breuer, Melinda Kennedy, Charles Higgins, Jim Walford, Gary McKee, 

Kim Fox, Wililam Bibb, and Paul Mead, A waterborne outbreak of Escherichia coli O157:H7 infections and

hemolytic uremic syndrome: implications for rural water systems, Emerging Infectious Diseases, April 2002. 



                                                      33

                         broadening of current regulations, such as the proposed
                         ground water rule designed to prevent illness from drinking
                         water from ground water sources through disinfection, are
                         needed to protect rural drinking water systems in the
                         United States.

             •	 From July 23 to September 12, 2004, an outbreak occurred on Bass Island,
                Ohio, that involved 1,450 cases (mainly Giardia). Though the specific
                cause of the outbreak was not determined, the problems occurred basically
                relative to transient public water systems.

             •	 As of September 26, 2005, 13 active boil water orders occurred in the
                State of Maine for the following reasons:

                 Table 5.2: Reasons for Maine Boil Water Order
                  Reason                                       Number         Percent
                  E. coli positive                                9             69%
                  Non-functioning disinfection system             2             15%
                  Chronic total coliform                          1              8%
                  System without water                            1              8%

                 The longest boil water order was in effect for 25 months, while four
                 systems had orders in effect less than a month. The average age of these
                 orders was 4.5 months. Of the 13 small water systems, 3 are small
                 community water systems, 5 systems are Non-Transient Non-
                 Communities, and 5 systems are Transients.

             •	 During calendar year 2004, 16 boil water orders were issued in Kansas--15
                of these were for systems serving less than 3,300 people (5 of these were
                for systems less than 500).

Public Health More at Risk in Small Systems
          A group of 46 international experts from the United States and other countries
          met in May 2004 to discuss small water systems. They agreed on four principal
          problems affecting small systems, including the incomplete understanding of
          public health risks. In the report on the international colloquium (issued January
          2005), the Executive Summary stated:

                 Public health risks associated with small water systems can be
                 incurred at any point in the water treatment and transmission
                 process, encompassing both acute and chronic diseases due to
                 microbial or chemical contamination ... Colloquium participants
                 concurred that system stakeholders must become far more aware
                 of these potential health risks.


                                           34

         The report also noted that relative to public health risks, small systems can be
         more at risk:

             •	 As distribution systems age and deteriorate, the burden of replacement is
                far
                greater for small systems and the per-household costs are very high.
             •	 Financial limitations and relative lack of access to laboratories and
                technical
                expertise may lead to inadequate monitoring and poorly trained personnel.
             •	 Cumulative risks may be greater for customers of small systems.
             •	 Small systems are more susceptible to acts of terrorism.
             •	 An alarming rise of E. coli contamination has occurred over the past 30
                years.
             •	 Increasing links exist between heavy rainfall and waterborne disease
                outbreaks.

         Similar comments were provided by a professor from Tufts University we met
         with, who is a member of the public health subcommittee of the National
         Drinking Water Advisory Council and on the water panel of EPA's Science
         Advisory Committee. He noted the following:

             •	 Small drinking water systems frequently do not have the expertise to do
                testing, the economics to maintain the systems, nor the population base to
                successfully support the system.

             •	 With regard to small community drinking water systems issues, there were
                challenges associated with flooding at various times of the year on a case-
                by-case basis. He stated that these challenges were true to the risks (e.g.,
                bacteria, Crypto, E. coli, Giardia, turbidity, and water quality in general)
                and that basically people were not protected from the risks under these
                conditions.

             •	 Although larger water systems were, in general, better, small drinking
                water systems were more at risk because of depopulation and the decrease
                in the tax base and thus not able to cope economically and address risk.

Conclusion

         Not much data exists on the health impacts relative to small drinking water
         systems. The CDC, which maintains the data system, has stated that information
         is vastly underreported. This data system relies on voluntary reports. Outbreaks
         can be directly related to small systems, but they are not of any great magnitude.
         Experts say, however, that small systems can be more at risk for public health
         incidents.



                                          35

Recommendation
         We recommend that the Assistant Administrator for Water:

         5-1 	   Continue the collaborative effort with the CDC to improve the system of
                 identifying drinking water related health outbreaks.

Agency Comment and OIG Evaluation

         EPA did not believe that it is possible to draw sound conclusions regarding the
         magnitude of outbreaks based on data from the current outbreak surveillance
         system. The response noted that CDC statistics only represent a portion of the
         burden of illness associated with drinking water exposure, the system only
         pertains to outbreaks of waterborne illness, and our report noted that studies have
         not been performed to assess the sensitivity of the reporting system.

         However, EPA appreciated the recommendation. The Office of Water has been
         working with the Office of Research and Development and CDC counterparts on
         efforts to improve the surveillance system and other activities to improve the
         investigation and reporting of outbreaks.

         We were pleased that EPA is working collaboratively with the CDC to improve
         the surveillance system so that there are better data on the effects of drinking
         water on the public health. We have slightly revised our recommendation to
         recognize the current EPA activity.




                                          36

                                                                            Appendix A

                     Organizations Visited During
                        Preliminary Research
EPA

Office of Ground Water and Drinking Water
Region 1
Region 7


States

Kansas Department of Health and Environment
Maine Department of Health and Human Services
Massachusetts Department of Environmental Protection


Third Party Organizations

Kansas Rural Water Association
Maine Rural Community Assistance Partnership
Maine Rural Water Association
Massachusetts Rural Community Assistance Partnership
Massachusetts Rural Water Association
Massachusetts Water Works Association
New England Interstate Water Pollution Control Commission
New England Water Works Association
Technical Assistance Center at the University of New Hampshire


Drinking Water Systems

Kansas             Maine                                  Massachusetts
Altoona            Begin Trailer Park                     East Chelmsford Water District
Elk City           Buckfield Water Department             Elm Hill Water District
Harveyville        Hebron Water Company                   Leino Park Water District
Toronto            Northern Springs Mobile Home Park      Nanatomqua Mobile Home Park
Williamsburg       Port Clyde Water District              Palmer Water District
                   Topsham Mobile Home Park               Wagon Wheel Mobile Home Park
                                                          West Brookfield Water District
                                                          Westminister Water District




                                             37

                                                                                     Appendix B

            Benefits and Barriers to Consolidation

Benefits to Consolidation
     Economies of Scale: Spreading fixed capital, operation, and maintenance costs over a
     larger population could lead to lower per unit costs and subsequent lower customer rates,
     and additional efficiencies by having lower total costs from combined financial,
     administrative, personnel, and equipment resources.

     Increased Financial Opportunities: More revenues and assets, larger tax base, and
     access to regional programs (States give priority to regional efforts when disbursing
     grants/financial support).

     Elimination of Duplicative Services: Greater efficiencies can be experienced by
     eliminating any services at one facility if another facility has a greater capability.

     Increased Reliability: Meeting water supply needs with one large source instead of
     numerous small ones.

     Increased Flexibility: New management possibilities - with more opportunities available,
     communities can develop strategies tailored to their specific needs and concerns.

     Enhanced Protection of Public Health: With benefits of economies of scale and potential
     greater access to state-of-the-art technologies, public health and environmental protection
     can be enhanced.

     Skill Improvements: Being able to offer higher salaries could attract better, more
     qualified employees.

     Service Efficiency: While data show that consolidation improves efficiency in other
     services, it is not known what efficiencies might be experienced in the water utility
     service.

Barriers to Consolidation

     Loss of Power and Community Independence: This is a primary concern of communities
     considering consolidation. Some smaller jurisdictions might have less influence on or
     supervision of a consolidated agency than their larger neighbors.

     Differing Management Goals: While neighboring communities share many common
     needs and concerns, disparities in population, geography, or other characteristics may
     make it difficult for communities to agree on specific regional projects.



                                               38

Conflicting Regulations: Multistate or multicounty regional programs can face varying
regulations.

Cost and Benefit Inequities: Some communities may bear a disproportionate share of
costs relative to the benefits derived when compared to communities with whom they
might consolidate services.

Workforce Reduction: Consolidation often entails employee layoffs, and it may be
difficult to get support from officials or citizens. Also, difficulties may arise when
personnel from one utility are tasked with increasing service to a larger population.

Equipment Reduction: Consolidation might entail disposal of facilities and equipment,
which often creates resistance from officials, especially where resources might be shared
across local service agencies (e.g., periodical use of water utility backhoe by town road
department).

Public Confusion: Short-term confusion that may arise over service delivery areas or
service providers.

Debt: It may take many years before a consolidation is able to pay off all pre-existing
debts, or at least slow their increase. Communities may not support consolidation if it
does not immediately bring about tax savings or fee reductions.




                                         39

                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460
                                                                                                                    Appendix C

                                                       APR 2 0 2006


                                                                                                                      OFFICE OF
                                                                                                                        WATER



MEMORANDUM

SUBJECT :        Much Effort and Resources Needed to Help Small Drinking Water Systems
                 Overcome Challenges, Assignment No. 2005-0001358, Draft Report

FROM :           Benjamin H. Grumble,
                 Assistant Adminis

TO:              Dan Engelberg
                 Director of Program Evaluation
                 Office of Inspector General


        Thank you for the opportunity to comment on your Office's draft report, Much Effort and
Resources Needed to Help Small Drinking Water Systems Overcome Challenges . I will respond
briefly to the overall findings, with more detailed responses to your recommendations and
technical comments attached .

         The report reconfirms the finding that many small drinking water systems lack adequate
technical, managerial, and financial capacity to operate in a sustainable manner. Over the past
several years, the Environmental Protection Agency (EPA) has been working to implement
programs from the 1996 Amendments to the Safe Drinking Water Act that were intended to help
strengthen the ability of these systems to reliably supply safe drinking water. We believe that
improvements have occurred as a result of efforts at the national, state and local levels .

        EPA has attempted to reduce the burden of regulations on small systems by providing
flexibility that is available through the law . However, for some systems, challenges will always
be there because they lack an adequate rate base across which to spread costs . Given that one of
EPA's primary missions is to protect public health, restructuring the industry to address these
systems is preferable to changing our public health protection framework in such a way as to
increase the public's exposure to risk.

        Additionally, many of the financial stresses that water systems have faced and will face in
the future are unrelated to regulatory requirements . EPA's assessments of drinking water
infrastructure needs have demonstrated that most of the identified needs are those that a system
would have to address irrespective of drinking water regulations . As water infrastructure ages,
systems will need to address the basic infrastructure which allows them to deliver water to



                                              Internet Address (URL) e http://www.epa .gov
         Recycled/Recyclable 9 Printed with Vegetable Oil Based Inks on 100% Postconsumer, Process Chlorine Free Recycled Paper
customers. EPA is emphasizing the importance of addressing our nation's water infrastructure
through the Sustainable Infrastructure Initiative (www .epa .gov/ow. As part of its Better
Management pillar to the initiative, we will continue to promote restructuring, whether physical
or managerial, as a strategy to reduce costs and the commensurate burden on ratepayers .

       Thank you again for the opportunity to comment on the draft report . If you have
questions regarding our comments, please contact Cynthia C. Dougherty, Director, Office of
Ground Water and Drinking Water, at (202) 564-3750 .

Attachments
EPA Resaonse to Recommendations

Recommendation 2-1 : Review the DWSRF process and determine if there are ways to
simplify it so that small systems have a better opportunity to obtain financing from
                                                                                     the
Fund.

Response : When discussing the DWSRF program, it is important to understand that, while the
national program establishes basic requirements, state programs are in charge of implementing
their own programs . Therefore, when looking at processes, there are actually 51 distinct
programs . EPA agrees that states should review their own processes to simplify and streamline
them, to the extent possible (given overriding federal requirements) . The law requires that a
minimum of 15% of DWSRF funds be provided to small systems serving fewer than 10,000 . At
a national level, the program has far exceeded this level, with 39% of funding going to small
systems. Because the costs of projects for small systems tend to be smaller, it is also useful to
look at the percentage of loans going to small systems, since it better reflects the impact of the
program . Through June 30, 2005, 73% of 4,200 loans made since the program began have been
provided to small systems . Breaking it down further, 19% of loans have gone to systems serving
fewer than 500, 34% to systems serving 501-3,300 and 18% to systems serving 3,301 to 10,000 .

Looking at those states visited by the IG, 77% of loans in Kansas (45% of funds) and 92% of
loans in Maine (80% of funds) went to small systems . Massachusetts, however, provided only
28% of its loans to small systems (14% of funds) . While the DWSRF may not be "broken" at the
national level, it may be appropriate for Massachusetts to reassess its program to determine
whether it can increase participation of small systems in the program. The Agency will continue
to work with states to identify best practices and share them with other states that are still facing
challenges in funding small systems.

If maintained, we suggest that the recommendation be redrafted to ask EPA to work with states
to identify successful approaches for working with small systems in the DWSRF program.

Recommendation 2-2: Determine whether a "one size fits all" approach could be changed
to a "regionalized" one.

Response : While potential occurrence and related exposure to a contaminant may vary by region
(e .g., arsenic), the health effects from a contaminant do not. EPA develops regulations to protect
the public from potential public health risks due to drinking water, regardless of where they are
in the country or the size of the system from which they receive service . In doing so, we establish
regulations that are risk-targeted (as compared to a "one size fits all" approach) . For example,
the Long-Term 2 Enhanced Surface Water Treatment Rule (LT2) establishes risk-targeted
treatment techniques requirements to control Cryptosporidium in public water systems using
surface water or ground water under the direct influence of surface water . Rather than require all
systems to meet more stringent treatment requirements, the LT2 regulation targets additional
treatment requirements to those systems that are identified as being at a greater risk of having
Cryptosporidium .




                                                  42
To reduce burden on small systems, EPA varies schedules and monitoring requirements by the
system size (and relative population served) . For example, the date for public water systems to
begin LT2 monitoring is staggered by size, with small systems starting at a later time than larger
systems . In addition, to reduce monitoring costs, small filtered systems initially monitor for E.
coli for one year as a screening analysis and are only required to carry out more costly
Cyptosporidium monitoring if their E. Coli levels exceed specified trigger values .

For the revised arsenic standard, which affects smaller systems to a greater degree than larger
systems, the Agency provided all systems with an additional two years to comply with the
standard (the 2001 rule became effective on January 23, 2006). Additionally, where warranted,
states have the flexibility to provide eligible systems with exemptions that can provide an
additional nine years to meet the standard so that they have time to obtain funding to address
capital needs.

We suggest that the IG drop this recommendation .

Recommendation 3-1 : Direct OGWDW to work closer with states to identify and compile
small system best practices and establish a method for disseminating the information so
that limited resources to assist small systems can be maximized.

Response : EPA agrees that states and technical assistance providers are using a variety of
approaches to reach small systems and that it is important to share successful tactics to ensure
that we all maximize our resources. Over the past few years, EPA has convened regional and
national capacity development workshops which bring together EPA staff, state personnel and
technical assistance providers to share their experiences in working with small systems . We have
found these to be successful and well-regarded by attendees as a mechanism for sharing
information . We have also found success in convening annual meetings of recipients of EPA's
Small System Technical Assistance Center (TAC) grants and other technical assistance providers
to share information about EPA's priorities and the activities carried out at each TAC.

Looking forward, we are incorporating a section on innovations and best management practices
into our Capacity Development Program Evaluation Tool. We are also assessing approaches by
which we could get feedback directly from small systems on both the usefulness of the tools we
have developed and what additional tools they need. Finally, one of our goals is to develop an
improved Internet site that will provide information developed by EPA to support small systems
and links to other third party providers who also assist small systems .

We can concur with this recommendation because it reflects efforts the program already has
underway .

Recommendation 4-1 : Develop guidance documents directed at small systems in easier to
understand language .




                                                43
Response: It is difficult to respond to this recommendation without a better understanding of the
specific documents to which interviewees were referring. EPA has been making a greater effort
in the past several years to develop guidance that is targeted to small systems . We have
developed Quick Reference Guides which provide overviews of each rule and a number of
documents for our Simple Tools for Effective Performance series . While we will continue to
work to develop guidance that is geared to small systems, we know that we need to do a better
job of ensuring the delivery of these products to small systems . In discussions with states,
systems, and technical assistance providers, it is clear that some are unaware of specific products
and tools that have been developed by EPA and its grantees . We believe our improved web site
and interactions with states and technical assistance providers will help us to get the word out on
existing tools, identify needs, and refine existing information to make it more useful to the
regulated community. For your reference, we have attached a summary of recent and upcoming
products for small systems that was provided to state drinking water administrators at a March
2006 meeting in Alexandria, Virginia .

If maintained, this recommendation would be more useful if it was more specific . For example,
it would be helpful if the IG could provide examples of specific guidance that EPA has
developed for small systems that is not easy to understand . Alternatively, it would be helpful if
the IG could provide examples of guidance developed by third parties that small systems have
identified as easy to understand .

Recommendation 5-1 : Seek ways to work jointly with the CDC to improve the system of
identifying drinking water related health outbreaks.

Response : The IG's conclusion notes that "outbreaks can be directly related to small systems,
but they are not of any great magnitude" . We do not believe it is possible to draw sound
conclusions regarding the magnitude of outbreaks based on data from the current outbreak
surveillance system. The CDC's outbreak surveillance summary for 2001-2002 noted that their
statistics represent only a portion of the burden of illness associated with drinking water
exposure . As discussed in the IG report and interviews with experts, not all outbreaks are
recognized, investigated, or reported to CDC or EPA, and studies have not been performed to
assess the sensitivity of the reporting system . Additionally, the current surveillance system
pertains only to outbreaks of waterborne illness and therefore might not reflect or correspond
with trends associated with endemic waterborne illness .

However, we appreciate the recommendation that EPA work with CDC to improve reporting of
drinking water related outbreaks. EPA's Office of Water has been working with our EPA Office
of Research and Development and CDC counterparts on efforts to improve the Waterborne
Disease Surveillance Systems and other activities to improve the investigation and reporting of
outbreaks. Specific activities being planned by CDC that EPA has been involved with include:
transitioning from a paper-based to electronic outbreak reporting system, providing training on
outbreak investigations, and implementing an Environmental Health Specialist Network pilot for
drinking water.




                                                 44
If maintained, we suggest that this recommendation be redrafted to recognize that EPA is already
working with CDC and encourage that those collaborative efforts continue .




                                               45
Specific Comments on Draft Report

Abbreviations
   " The text for "MCL" should read "Maximum Contaminant Level" .

Chapter 2
   " Page 5, under Aging Infrastructure, 3rd paragraph, 2°d sentence . The text notes that
      "fewer and fewer grant dollars are available for infrastructure than in prior years" . It is
      unclear to what grant dollars the speaker is referring. EPA had no formal funding
      mechanism for drinking water infrastructure prior to the 1996 SDWA Amendments . If
      the speaker is referring the funds made available through the U.S . Department of
      Agriculture's Rural Development or other state and federal programs, it would be
      appropriate to clarify and verify that fact.

       Page 6. 3`d paragraph under Difficulties in Obtaining Financial Assistance . In considering
       the availability of funding, it is important to remember that there are close to 50,000
       community water systems in the country that serve fewer than 10,000 people . No one
       federal funding program can or should address the needs of all of these systems. Each
       federal program must focus its limited resources on the highest priorities of that program .
        For the DWSRF program, these are projects needed to protect public health and ensure
       compliance with the Safe Drinking Water Act. If the IG did not consider the priorities of
       the funding programs in selecting small systems to interview, then it is not surprising the
       systems visited had not applied for or received assistance .

   "   Page 9.1s` paragraph and heading under Regulatory/Compliance Challenges . The heading
       "understanding and burdensome regulations" is somewhat confusing because it appears
       there are either missing words or an extra "and" in the clause . We recommend changing
       it to read "Concerns about Burdensome Regulations" since this seems to capture the
       issues raised in the section. With respect to these concerns, the focus on burden implies
       that there is no underlying public health benefit to drinking water regulations. EPA issues
       regulations to address public health concerns, not for the sole purpose of creating more
       burden for systems .

   "   Page 10, Is' paragraph under Compliance with Current Regulations. The I 't sentence
       does not make sense. For the 3`d sentence, the text should read "maximum contaminant
       levels", not "maximum combined loadings".

   "   Page 10, 3rd paragraph under Compliance with Future Regulations . This paragraph is
       unclear. If a ground water system does not disinfect, the Stage 2 Disinfection Byproducts
       rule would not be a problem. Should the reference instead be to the "Ground Water
       Rule", which could result in some systems having to disinfect and thus install equipment?

   "   Page 11, 2°d paragraph beginning "Third-party organizations described. . ." . The second
       sentence indicates that NEIWPCC is concerned with the new Ground Water Rule because
                                                 7



                                                 46
    of disposal issues associated with the resulting effluent. Is the reference supposed to be
    to the "revised Arsenic Rule"? The only "waste stream" that would be associated with
    the Ground Water Rule would be disinfected water, whereas treatment to meet the
    Arsenic Rule could result in a residual that systems would have to manage.

"   Same paragraph . With respect to the comment about "EPA's concept of writing the rules
    as one size fits all", as noted in the response to recommendation 2-2, EPA is working to
    develop regulations that target risks and tailor requirements according to the identified
    risk . It would appear that the speaker is comparing the requirements that small systems
    must meet to "doing nothing at all" instead of comparing the requirements to those that
    larger systems must meet.

"   Same paragraph. In the last sentence, the reference should be to "monitoring", not
    "capital" costs, and to the "Long Term 2 Enhanced Surface Water Treatment Rule (LT2
    Rule)", not the "Stage 2 Rule" . Further, the statement fails to recognize the flexibility
    provided in the LT2 rule which allows small systems to conduct an initial screen of
    monitoring for E. coli. Systems would only have to carry out more expensive testing for
    Cryptosporidium if they exceed a trigger value for E. coli .

Chapter 4

"   Page 19 . We are not sure of the usefulness of including compliance data from 1992-1994
    in the report unless it is for the purpose of showing trends between that time period (pre-
    1996 SDWA amendments) and the present.

"   Page 20. Tables 4-1 and 4-2 should indicate the years covered by the data .

"   Page 20. lst paragraph under Table 4-1 . Text refers to "maximum levels of contaminants
    (MCL)". It should refer to "maximum contaminant levels" .

"   Same paragraph, last sentence. Given the fact that small systems make up a greater
    percentage of all systems, it is not surprising that they account for more violations . It is
    more useful to look at the systems in violation as a percentage of total systems in a
    specific size class . For example, Table 4-2 shows the number of systems with violations
    of health-based standards by size class. The table below shows the percent of CWS in
    2004 with violations of any health based standard (e.g., MCL, MRDL, TT, other) by size,
    after correcting for double counting systems that may have a violation of more than one
    contaminant (e.g., one system may have a violation of the MCL for the Total Coliform
    Rule and a violation of the TT for the Surface Water Treatment Rule) . While individual
    small systems may have a violation of more than one rule, a review of this table would
    seem to indicate that the overall percentage of systems with violations is not so different
    from medium or large systems.




                                              47
                                                                                                        %
                                                                                                        Population
                                                  Population                                  % CWS     Served by
                                      CWS with Served by CWS                 Total Population with      CWS with
FY      CWS Size         Violations   a Violation with Violation Total CWS   Served b CWS Violation     violation
    2004 1 Very-Small      4,249        2,757       445,449       30,006        4,957,131       9 .2%         9 .0%
        2-Small             1,820       1,123      1,601,133      14,212       20,137,604       7 .9%         8 .0%
        3-Medium             676          410      2,407,717      4,707        27,346,264       8 .7%         8 .8%
        4-Large              709          359      8,745,641       3,541      99,808,668       10.1%          8 .8%
        5 - Very-Large        60           28     14,113,921        372       120,246,010       7 .5%        11 .7%

"     Page 20-21 . With respect to text under the section EPA Guidance Hard to Understand, it
      would have been useful to have a better understanding as to whether the speakers were
      referring to products that have been specifically developed for small systems.

"     Page 22 . Last paragraph under Consolidation has Pros and Cons. The first sentence should
      clarify that it is referring to the "Stage 1" Disinfectant/Disinfection Byproducts Rule.

"     Page 25. Last paragraph under Small Systems Overcome Challenges Themselves . In the first
      paragraph, the text indicates that the town commissioner said "the best thing for the system
      was the State Consent Order issued in 1999 because it forced change" . Given this, it would
      seem that the last paragraph should also speak to the diligent efforts of the State drinking
      water program (in addition to the Board and water system staff) . While unfortunate, it seems
      that, in some cases, state oversight and enforcement actions must serve as the driver for
      change. Had the state backed down, it is unlikely the system would have been able to gain
      support for rate increases that are allowing them to upgrade services for the community.




                                                          48
  Attachment referenced in resp onse to Recommendation 4-1

          Drinking Water Utilities Team Products to Assist States and Small Systems
                                     March 2006 Update


  I. STEP Guides (Simple Tools for Effective Performance)

 Setting Small Drinking Water System Rates for a Sustainable Future (December 2005) : As
 part of its on-going efforts to promote sustainable water infrastructure, EPA has released a new
 document to help water utilities consider whether their rate structures sufficiently address the
 costs of ensuring safe and clean water. This document is for owners and operators of small
 community drinking water systems . It is designed to help these owners and operators understand
 the full costs of providing a safe and adequate supply of drinking water to their customers, and to
 guide them in setting water rates that will support these costs . Systems that will find this guide
 useful are small publicly or privately owned entities whose primary business is providing
 drinking water, as well as homeowner associations and manufactured housing communities .
 Copies of this document can be obtained from the EPA Safe Drinking Water Hotline at 800-426-
 4791 . Please reference EPA Document # 816-R-05-006 . Copies of this document can also be
 obtained from the EPA website at:
 http://www.ena.2ov/safewater/smallsys/ndfs/guide smallsystems final ratesetting       ug ide pdf

 Taking Stock of Your Water System: A Simple Asset Inventory Guide for Very Small
 Drinking Water Systems (October 2004) : EPA has developed a STEP Guide to assist very
 small systems in conducting a simple inventory of infrastructure for capital planning purposes .
 This STEP Guide is essential in keeping these types of water systems running properly and
 making sure that the drinking water produced by these systems is reliable, safe and affordable .
 Copies of this document can be obtained from the EPA Safe Drinking Water Hotline at 800-426-
 4791 . Please reference EPA Document # 816-K-03-002 . Copies of this document can also be
 obtained from the EPA website at:
 http ://www.epa .gov/safewater/smalls ys/pdfs/final asset inventory for small s stems pdf

~ Small Systems Guide to Safe Drinking Water Act (SDWA) Regulations (September 2003) :
  EPA has developed a STEP Guide that explains how current and future SDWA regulations relate
  to each other to achieve public health protection. This workbook focuses on why compliance is
  important, what knowledge is needed in order to comply, and when compliance is required.
  Copies of this document can be obtained from the EPA Safe Drinking Water Hotline at 1-800-
  426-4791 . Please reference EPA Document # 816-R-03-017 . Copies of this document can also
  be obtained from the EPA website at:
http://www.epa.aov/safewater/smalls ys/pdfs/,izuide smallsystems sdwa pdf

 Asset Management : A Handbook for Small Water Systems (September 2003): EPA has
 developed a STEP Guide that emphasizes how effective asset management is a key element of small
 system sustainability . Various sample worksheets are provided to help small systems organize data

                                                 10



                                                  49
and determine the best approach to maintenance and replacement of major physical assets . Copies
of this document can be obtained from the EPA Safe Drinking Water Hotline at 1-800-426-4791 .
Please reference EPA Document # 816-R-03-016 . Copies of this document can also be obtained
from the EPA website at:
http ://www .epa.gov/safewater/smallsys/pdfs/guide smallsystems_asset mgmnt.pdf

Strategic Planning : A Handbook for Small Water Systems (September 2003): EPA has
developed a STEP Guide to assist small systems in strategic planning . The STEP Guide provides
worksheets and related tools to help systems organize data and systematically assess their strengths,
weaknesses, challenges, and opportunities . This Guide is based on the strategic planning
workshops held around the country in 2000 . Copies of this document can be obtained from the EPA
Safe Drinking Water Hotline at 800-426-4791 . Please reference EPA Document # 816-R-03-015.
Copies of this document can also be obtained from the EPA website at:
http ://www .epa .gov/safewater/smallsys/pdfs/guide smallsystems stratplan.pdf.

Complying With the Revised Drinking Water Standard for Arsenic: Small Entity Compliance
Guide (One of the Simple Tools for Effective Performance (STEP) Guide Series) (December
2002) : EPA has developed a guide that is designed to help small drinking water systems understand
and achieve compliance with the revised Arsenic Rule. The STEP Guide provides information for
small drinking water systems to help in their selection of appropriate arsenic compliance options.
Worksheets are also provided along with step-by-step instructions on how to complete them and
interpret monitoring results . Additional blank worksheets can be requested separately . Copies of
this document can be obtained from the EPA Safe Drinking Water Hotline at 1-800-426-4791 .
Please reference EPA Document # 816-R-02-008A for the STEP Guide and EPA Document # 816-
R-02-008B for additional blank worksheets . Copies of this document can also be obtained from the
EPA website at: http ://www.epa.gov/safewater/ars/pdfs/regguide/ars final app f.pdf

Sources of Financial and Technical Assistance for Small Systems (July 2002) : EPA has
developed a guide that identifies major sources of technical and financial assistance specifically
targeted at small drinking water systems. Each source listed in this document contains a description
about the source's mission, types of assistance that can be provided, and contact information.
Copies of this document can be obtained from the EPA Safe Drinking Water Hotline at 1-800-426-
4791 . Please reference EPA document # 816-K-02-005 . Copies of this document can also be
obtained from the EPA website at: http ://www.epa.gov/safewater/smallsys/pdfs/tfa sdws .pdf

A Small System Guide to the Total Coliform Rule: Monitoring Drinking Water Systems to
Protect Public Health (June 2001) : EPA has developed a guide that describes the need for
coliform monitoring and how the Total Coliform Rule (TCR) applies to small community drinking
water systems serving 3,300 people or less . Worksheets are provided along with step-by-step
instructions on how to complete them and interpret the results of TCR monitoring . Additional
blank monitoring worksheets can be requested separately . Copies of these products can be
obtained by calling the Safe Drinking Water Hotline at 1-800-426-4791 . Please reference EPA
Document # 816-R-O1-017A for the STEP guide and EPA Document # 816-R-O1-017B for


                                                      11


                                                 50
additional blank monitoring worksheets . Copies of this document can also be obtained from the
EPA website at: http://www .epa.gov/safewater/smallsys/small-tcr .t)df

Coming Soon!
Stage 1 Disinfection Byproducts (DBP) STEP Guide: EPA is currently developing a STEP
Guide to guide small systems in achieving compliance with the Stage 1 Disinfectants and
Disinfection By-Products rule . The STEP Guide will include worksheets and other tabular and
graphical tools to help systems organize their data and think through compliance options. EPA is
expecting to have this workbook completed in Spring 2006 .

Restructuring Workbook for Small Water Systems: EPA is currently developing a simple
workbook to help small drinking water systems with restructuring. The workbook shall include
worksheets and related tools to assist small systems in their restructuring efforts. Emphasis should
be place on management and physical consolidation options . Restructuring opportunities in the
public and private sectors will also be explored . EPA is expecting to have this product completed
by Spring 2006 .

Total Coliform Rule STEP Guide for Non-Community Water Systems : EPA is developing a
workbook to help small non-community drinking water systems comply with the Total Coliform
Rule . EPA is expecting to have this document completed by Spring 2006.

11. Reports and Manuals

Arsenic Treatment Technology Evaluation Handbook for Small Systems (July 2003): This
manual addresses state-of-the-art arsenic treatment for small systems and includes discussion of
process theory, design parameters, cost estimation, compatibility with existing treatment processes,
necessary pre- and post-treatment, residual disposal, and process operation and maintenance.
Detailed example design calculations will be provided . The manual is intended for use by
consulting engineers, state engineers, and technical assistance providers . Copies of this document
can be obtained from the EPA Safe Drinking Water Hotline at 1-800-426-4791 . Please reference
EPA Document # 816-R-03-014 . Copies of this document can also be obtained from the EPA
website at: http ://www.epa .gov/safewater/smallsys/arsenic treatment handbook lo pdf

Coming Soon!
Summary of State Operator Certification Programs : EPA is currently developing a
comprehensive summary document of state Operator Certification programs . The summary will be
organized to address the key components of EPA's Operator Certification Guidelines . EPA is
expecting to have this document completed by Summer 2006 .

Compendium of Restructuring Statutes, Regulations, and Policies Report: EPA is currently
developing a compendium of statutes, regulations, and policies on restructuring . EPA is expecting
to have this compendium completed by Summer 2006 .



                                                      12



                                                 51
III. Drinking Water Academy Courses

Drinking Water Academy Courses on Capacity Development : EPA has developed four courses
in conjunction with the Drinking Water Academy: Introduction to Capacity Development (February
2003) ; Developing Technical Capacity (February 2003); Developing Managerial Capacity (July
2002), and Developing Financial Capacity (July 2002). Copies of these courses are available at:
http ://www .epa.gov/safewater/dwa/electronic/ematerials html#PWS

Comins Soon!
"Introduction to Restructuring for Small Systems" Drinking Water Academy Course: EPA is
developing a one-day course to help small drinking water systems with restructuring . Emphasis will
be placed on management and physical consolidation options . Restructuring opportunities in the
public and private sectors will also be explored in the course. The course will discuss available
tools to assist small systems in their restructuring efforts . EPA is expecting to have this course
completed by Spring 2006 .

"Introduction to the Multiple Barrier Approach" Drinking Water Academy Course : EPA is
developing a one-day course to help all water system personnel understand the barriers to
contamination : source water protection ; treatment; distribution system integrity ; and public
awareness . The course will discuss available tools to systems in their important efforts to protect
public health through safe drinking water . EPA is expecting to have this course completed by
Spring 2006.

IV. Quick Reference Guides and Brochures

Quick Reference Guide for Variances and Exemptions: EPA has developed a Quick Reference
Guides for Variances and Exemptions Rule. Copies of this document can be obtained from the EPA
Safe Drinking Water Hotline at 1-800-426-4791 . Please reference EPA Document # 816-F-04-005 .
 Copies of this document can also be obtained from the EPA website at:
http ://www.epa.gov/safewater/smallsys/pdfs/qrauide smallsystems variance-exemptions .pdf

Coming Soon!
Promotional Materials for Best Management Practices: EPA is developing a brochure (4 pages)
highlighting the capacity building benefits of system performance and optimization initiatives
through Environmental Management Systems. EPA is expecting to have this document completed
by Summer 2006.

"Targeted" Quick Reference Guides: EPA is developing a series of 2-4 page Quick Reference
Guides for small water systems, including: Distribution Systems and Cross Connections; Roles and
Responsibilities of Operators; Roles and Responsibilities of Owners; Timing Basics ; Reporting and
Recordkeeping . EPA is expecting to have these documents completed by Summer 2006.

V. Tools


                                                    13


                                                  52
Preventive Maintenance Tool for Small Ground Water Systems (Card File): EPA has
developed a simple preventive maintenance tool for small ground water systems . The tool consists
of index cards that give preventive maintenance tasks to be accomplished on a daily, weekly, and
monthly basis . The tool also incorporates security-related tasks that could be accomplished in
conjunction with the maintenance tasks . Copies of this document can be obtained from the EPA
Safe Drinking Water Hotline at 1-800-426-4791 . Please reference EPA Document # 816-B-04-002 .
 Copies of this document can also be obtained from the EPA website at:
http://www .epa.gov/safewater/smalls ~Ls/pdfs/logcards smallsvstems preventivemaintainance .pdf (log cards)
and http://www .epa.gov/safewater/smallsys/pdfs/booket smallsystems preventivemaintainance .pdf (guide
booklet)

Coming Soon!
Interactive Sampling CD for Small Systems : This Interactive CD-Rom tool is being
developed to provide small system operators with video instruction for sample collection,
storage, and shipment of contaminants such as: VOC's, IOC's, SOC's, Coliform bacteria,
Radiological, TTHM/HAA5, and Lead/Copper. PowerPoint slides will also be available for
trainers . The CD will contain Case Studies (7 short video clips highlighting small systems that
have had detections of some of these contaminants and their story on how they dealt with each
situation); the Rule Wizard (allows the user to input system size, source, and treatment type to
generate the Federal SDWA sampling requirements) ; and a Contaminant List. EPA is
expecting to have these documents completed by Summer 2006.

VI. Case Studies

Case Studies of Sustainable Water and Wastewater Pricing (December 2005): As part of its
on-going efforts to promote sustainable water infrastructure, EPA has released a new document
to help water utilities consider whether their rate structures sufficiently address the costs of
ensuring safe and clean water. This document provides case studies describing how eight
drinking water systems across the U.S . have approached water pricing. Each case study provides
background on the system and describes how they are allocating costs and what rates should be
charged to their customers. EPA collected this information to respond to the increasing
challenges systems face with maintaining our nation's water infrastructure. This document will
be made available to water and wastewater utility staff, state regulators, and technical and
financial assistance providers in order to give new perspectives, and possibly valuable insight, on
ways to develop and implement sustainable pricing practices. Copies of this document can be
obtained from the EPA Safe Drinking Water Hotline at 1-800-426-4791 . Please reference EPA
document # 816-R-05-007 . Copies of this document can also be obtained from the EPA website
at:
http ://www .epa.,izov/safewater/smallsys/pdfs/guide smallsystems fullcost pricing case studies .




 Small System Partnership Solutions (September 2002) : EPA has developed a product that
 provides an overview of steps that promote partnerships between systems. The product provides

                                                         14


                                                    53
examples of successful case studies of systems that have partnered with each other as a solution
to achieving capacity . Copies of this document can be obtained from the EPA Safe Drinking
Water Hotline at 1-800-426-4791 . Please reference EPA document # 816-R-02-022. Copies of
this document can also be obtained from the EPA website at:
http ://www .epa.gov/safewater/smallsys/ dfs/capacitydevelopstudyvl5 Rdf




                                                54
                                                                            Appendix D


                                    Distribution
Office of the Administrator
Assistant Administrator, Office of Water
Director, Office of Ground Water and Drinking Water
Agency Followup Official (the CFO)
Agency Followup Coordinator
Audit Liaison, Office of Water
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
General Counsel
Acting Inspector General




                                             55

